Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 1 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 1

PUBLISH

FILED
United States Court of Appeals
Tenth Circuit

UNITED STATES COURT OF APPEALS

August 31, 2020

1a

FOR THE TENTH CIRCUIT
_________________________________

Christopher M. Wolpert
Clerk of Court

CALVIN McCRAW; G. WAYNE
MARSHALL; MARK FAULK; TRISTA
WILSON; NEAL SCHINDLER;
OKLAHOMA LIBERTARIAN PARTY;
RED DIRT REPORT,
Plaintiffs - Appellants,
No. 19-6008
(D.C. No. 5:16-CV-00352-HE)
(W.D. Okla.)

v.
CITY OF OKLAHOMA CITY, an
Oklahoma municipal corporation;
WILLIAM CITTY, in his official capacity
as Chief of the Oklahoma City Police
Department,

Defendants - Appellees.
_________________________________
Appeal from the United States District Court
for the Western District of Oklahoma
(D.C. No. 5:16-CV-00352-HE)
_________________________________
Joseph Thai, Oklahoma City, Oklahoma (Erwin Chemerinsky, Berkeley, California;
Ryan Kiesel, Brady Henderson, Megan Lambert, ACLU of Oklahoma Foundation,
Oklahoma City, Oklahoma; Greg Beben, Legal Aid Services of Oklahoma, Inc.,
Oklahoma City, Oklahoma; and Micheal Salem, Salem Law Offices, Norman, Oklahoma,
with him on the briefs)
Amanda Carpenter, Oklahoma City, Oklahoma (Kenneth Jordan, Municipal Counselor;
Catherine Campbell, Phillips Murrah P.C., Oklahoma City, Oklahoma, with her on the
briefs)
_________________________________
Before LUCERO, EBEL, and HARTZ, Circuit Judges.

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 2 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 2
2a

_________________________________
LUCERO, Circuit Judge.
_________________________________
This case concerns the First Amendment rights of citizens in the public square—
specifically on medians in public roads. Oklahoma City Ordinance 25,777 prohibits
standing, sitting, or remaining for most purposes on certain medians. Okla. City, Okla.,
Code ch. 32, art. XIII, § 32-458. Plaintiffs are Oklahoma City residents, a minority
political party in Oklahoma, and an independent news organization. They use medians to
panhandle, engage in protests or other expressive activity, mount political campaigns,
cover the news, or have personal conversations. After they were no longer able to engage
in such activity due to the ordinance, plaintiffs sued Oklahoma City and its chief of
police, William Citty, (together, “the City”) alleging violations of their First and
Fourteenth Amendment rights. The district court dismissed plaintiff Trista Wilson’s First
Amendment claim; granted summary judgment favoring the City on plaintiffs’ due
process vagueness claims; and, following a bench trial, entered judgment against
plaintiffs on all other claims. Exercising jurisdiction under 28 U.S.C. § 1291, we reverse
the court’s entry of judgment favoring the City on plaintiffs’ First Amendment claims;
we reverse the dismissal of Wilson’s First Amendment claim; and we affirm on all other
claims.

2

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 3 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 3
3a

I
A
As in many other cities, the medians in Oklahoma City are varied and diverse.
They range in length and width: some span an entire city block, others stretch down
several car lengths at intersections. Many contain trails, sidewalks, benches, art, large
signs, landscaping, or wide-open spaces. One even contains an operating fire station.
In 2015, before the enactment of the ordinance at issue in this case, Oklahoma
City’s municipal code prohibited pedestrians from soliciting in roadways without a
permit. Pedestrians could apply for a permit to walk from a median or sidewalk into the
road to solicit, so long as they did not impede traffic and remained in the road only when
cars were stopped at traffic lights. Under this system, political campaigns, panhandlers,
and community fundraisers—including firefighters engaged in their annual Fill the Boot
campaign for the Muscular Dystrophy Association—engaged in various activities on
medians.
In December 2015, the Oklahoma City Council further restricted pedestrian
activity on medians. Ordinance 25,283 (“Original Ordinance”) prohibited standing,
sitting, or staying on any portion of a median either less than thirty feet wide or located
less than two hundred feet from an intersection. Okla. City, Okla., Ordinance 25,283
(Dec. 9, 2015). The ordinance eliminated the prior permit exception for soliciting in
roadways, but it allowed access to medians for certain specified purposes, including
access by public employees and for emergency uses.
Before its passage, city officials and others pointed to panhandlers as the impetus
3

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 4 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 4
4a

for the Original Ordinance. The ordinance’s author cited complaints she had received
from citizens and businesses regarding panhandling and repeatedly described the Original
Ordinance as addressing panhandling. She also stated that her goal was “to help try to
find a way to redirect the dollars that are going out windows” back to agencies that
provide food and shelter. Before the Original Ordinance was introduced, the City’s
municipal counselor informed City officials that the author was working on an ordinance
to ban panhandling and soliciting on medians; he recognized the potential
unconstitutionality of such a law. Later, at a public hearing regarding the ordinance two
weeks after its introduction, the municipal counselor’s office contended it should be
viewed as addressing public safety and was “not necessarily about panhandlers.” An
assistant city attorney explained that people on medians, regardless of their activity, were
in danger and that panhandling would still be permitted on sidewalks and on the side of
the road.
At the third and final council meeting regarding the ordinance, Chief Citty gave a
presentation. The presentation was originally titled “Panhandler Presentation,” but by the
time Chief Citty gave it, its name had been changed to “Median Safety Presentation.” It
demonstrated that between January 10, 2010, and September 29, 2015, there were 39,833
collisions citywide. This included 16,358 accidents resulting in injuries or fatalities, of
which 76% occurred near intersections. However, it showed no pedestrian-related
accidents on medians.
Chief Citty showed slides and photographs of damaged medians and accidents in
which vehicles entered or crossed onto the median, but he offered no specific evidence of
4

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 5 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 5
5a

accidents involving pedestrians on medians. He stated that some of the accidents
involved pedestrians but that he did not know the precise number, adding that the number
would not be “very high.” He also stated that much of the damage to medians is caused
by unreported accidents.
According to Chief Citty, it had been the police department’s position for several
years that pedestrian activity on medians was dangerous because of pedestrians’ exposure
to traffic moving in different directions. The City Council disagreed about whether these
safety concerns justified the Original Ordinance, but it passed by a seven-to-two vote.
Plaintiffs sued, claiming that the Original Ordinance violated their First and
Fourteenth Amendment rights. The same month, the City Council amended the city’s
Aggressive Panhandling Ordinance, Okla. City, Okla., Code ch. 30, art. XV, div. 2, § 30428 et seq., to expand existing panhandling-free zones and to create new ones. The
ordinance included a ban on panhandling within fifty feet of any mass transportation stop.
In 2017, after the district court denied the City’s motion for summary judgment
without prejudice, the City Council revised the ordinance. Ordinance 25,777 (“Revised
Ordinance”), amended the section of the City’s municipal code entitled, “Standing,
sitting, or staying on streets, highways, or certain medians.” § 32-458. It outlawed
pedestrian presence on medians in all streets with a speed limit of forty miles per hour or
more, but exempted government employees and people on the median to cross the street,
perform “legally authorized work,” or “respond[] to any emergency situation.” Id.
The Revised Ordinance included findings, with citations to a Centers for Disease
Control and Prevention (“CDC”) report listing higher vehicle speeds among risk factors
5

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 6 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 6
6a

for auto-pedestrian crashes and a Federal Highway Administration publication with
general statistics regarding the likelihood of fatality for a pedestrian struck by a moving
vehicle. Neither report addressed medians in particular. The findings also noted that in
2015, pedestrian deaths accounted for 15% of all traffic fatalities; 90% of the pedestrian
deaths were from crashes involving a single vehicle; and 19% of pedestrian deaths were
from crashes involving hit-and-run drivers. Without citation, the Revised Ordinance also
concluded that people sitting, standing, or remaining on medians “create additional
distractions for the operators of motor vehicles using such streets and highways.”
Before the Revised Ordinance was passed, an assistant city attorney told the City
Council that the City had conducted further research to determine the highest risk factor
for pedestrians who remained on medians for longer than necessary to cross the street.
Based on National Highway Traffic Safety Administration (“NHTSA”) statistics, the City
determined that vehicles traveling at high speeds caused the most risk. According to the
NHTSA, the pedestrian fatality rate in accidents with vehicles traveling at forty miles per
hour is 85%, compared to 45% for vehicles traveling at thirty miles per hour and 5% for
vehicles traveling at twenty miles per hour. The CDC similarly reported that vehicle
speeds increased both the likelihood of pedestrians being struck by a motor vehicle and
the severity of injury.
The City solicited the opinion of Master Sergeant Brian Fowler, a fatality
investigator for the Oklahoma City Police Department, who observed that in 2015 the
Insurance Institute of Highway Safety reported that 54% of pedestrian deaths occurred on
large, arterial roadways. He testified that median curbs offer “very minimal” protection
6

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 7 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 7
7a

when vehicles are traveling at higher speeds, that driver distractions cause pedestrians to
be at higher risk, and that pedestrians on medians cause distractions to drivers. Fowler
and Chief Citty set forth a descending hierarchy of the riskiest places for pedestrians to
be: (1) traffic lanes, (2) medians, and (3) roadsides or sidewalks. Fowler also testified
that he believed that the longer a pedestrian remained on a median, the greater the risk.
He was unable, however, to quantify the risk or provide any support in safety literature
for his opinion.
In response to a request from plaintiffs for all accident reports involving medians
or pedestrians, the City produced 504 reports dating from 2012 to 2017. No report
involved a pedestrian struck on any median. Out of 39,833 accidents reported from 2010
to 2015, none involved pedestrians on medians. Further, at trial, the City could not
identify anyone injured on a median in Oklahoma City or any accident caused by
pedestrian activity on a median. Moreover, Fowler admitted that he did not have any
research or data to support his conclusion that pedestrians remaining on medians in
Oklahoma City are exposed to more risk.
The Revised Ordinance prohibits pedestrians from being on approximately four
hundred medians across Oklahoma City.1 The City asserts that there are at least 103
medians unaffected by the ordinance because they are on roads with speed limits lower

1

The parties stipulated that a legal intern personally verified the physical
existence and location of each of the 406 medians on the list plaintiffs introduced at
trial.
7

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 8 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 8
8a
2

than forty miles per hour. Plaintiffs respond that at least 27 of these 103 medians are
unavailable to panhandlers and solicitors under the Aggressive Panhandling Ordinance
because they are within fifty feet of a bus stop.3
B
Plaintiffs are individuals and organizations whose use of the medians has been
barred by the Revised Ordinance. Mark Faulk, the chair of the Oklahoma County
Democratic Party and a former state legislative candidate, has held campaign signs and
taken part in political protests on affected medians. The Oklahoma Libertarian Party has
used medians to garner signatures for petitions and to spread its message. Red Dirt
Report is a central Oklahoma online daily periodical that uses medians to cover breaking
news. Calvin McCraw and G. Wayne Marshall panhandle on medians to pay for food,
shelter, medicine, and other necessities. McCraw has also stood on medians to distribute
The Curbside Chronicle, a street newspaper.

2

The parties dispute the application of the Revised Ordinance to the medians
along Lincoln Boulevard, which is also State Highway 0. The district court
concluded that because the Lincoln Boulevard medians were under the direct control
of the State, not the City, they were unaffected by the ordinance. Plaintiffs argue that
the City maintains control of the Lincoln Boulevard medians because it has municipal
jurisdiction to “[r]egulate and control the use of streets, roads and other public ways
within the limits of the municipality,” Okla. Stat. tit. 11, art. XXXVI, § 36-101(1),
further evidenced by the fact that it grants a right-of-way along Lincoln Boulevard
and its medians for the annual Oklahoma City Memorial Marathon. Because it is not
dispositive of our analysis, we note the dispute but do not decide whether the Revised
Ordinance applies to Lincoln Boulevard’s medians.
3

Plaintiffs do not address whether any of the remaining 76 unaffected medians
would be unavailable to panhandlers under other provisions of the Aggressive
Panhandling Ordinance.
8

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 9 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 9
9a

Trista Wilson and Neal Schindler use the medians when they run. Wilson stops on
medians to converse with her jogging companions. Schindler celebrates life and honors
those who died in the Oklahoma City bombing by running on medians while training for
the Oklahoma City Memorial Marathon.
After passage of the Revised Ordinance, plaintiffs added claims alleging the new
law violated their constitutional rights. The district court dismissed their claims
challenging the Original Ordinance as moot. It also dismissed Wilson’s First
Amendment claim, concluding that she had not alleged that the Revised Ordinance
impinged on protected expression. On summary judgment, the court rejected plaintiffs’
Fourteenth Amendment vagueness challenge, holding that the Revised Ordinance’s
definition of “emergency” did not render the ordinance unconstitutionally vague.
Following a bench trial with live witnesses and deposition designations, the district court
rejected the remaining claims. It concluded that “a substantial number of medians subject
to the Ordinance qualify as traditional public fora,” but the Revised Ordinance was a
valid time, place, and manner restriction under the First Amendment because it was
narrowly tailored and provided ample alternative channels of communication. It also
rejected plaintiffs’ Fourteenth Amendment due process claim, concluding that there was
no fundamental right to intrastate freedom of movement and that the Revised Ordinance
passed rational basis review. Plaintiffs appealed.
II
“In a First Amendment case, we have an obligation to make an independent
examination of the whole record in order to make sure that the judgment does not
9

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 10 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 10
10a

constitute a forbidden intrusion on the field of free expression.” Citizens for Peace in
Space v. City of Colo. Springs, 477 F.3d 1212, 1219 (10th Cir. 2007) (quotation
omitted).4 We therefore “review the district court’s findings of fact and its conclusions of
law de novo” and “without deference to the trial court.” Id. (quotation omitted). We also
review de novo the court’s legal conclusions regarding plaintiffs’ due process claims.
See McClure v. Ind. Sch. Dist. No. 16, 228 F.3d 1205, 1212 (10th Cir. 2000).
A
Because it concluded the Revised Ordinance was a constitutionally permitted time,
place, and manner restriction, the district court entered judgment for the City on
plaintiffs’ First Amendment claims. The First Amendment, applicable to the States under
the Due Process Clause of the Fourteenth Amendment, provides that “Congress shall
make no law . . . abridging the freedom of speech, . . . or the right of the people peaceably
to assemble, and to petition the Government for a redress of grievances.” U.S. Const.
amend. I; see also iMatter Utah v. Njord, 774 F.3d 1258, 1263 (10th Cir. 2014). “To
demonstrate a violation of their First Amendment rights, Plaintiffs must first establish
that their activities are protected by the First Amendment. If so, a court must identify
whether the challenged restrictions affect a public or nonpublic forum; that determination
dictates the extent to which the government can restrict First Amendment activities

4

Pursuant to our obligation, we have reviewed the entire record and base our
analysis and conclusions on our review. However, we note that this obligation does
not excuse the parties from their requirement under Federal Rule of Appellate
Procedure 28 to cite to the “parts of the record on which [they] rel[y] . . . .” Fed. R.
App. P. 28(a)(8)(A), (b).
10

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 11 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 11
11a

within the forum. Finally, courts must determine whether the proffered justifications for
prohibiting speech in the forum satisfy the requisite standard of review.” Verlo v.
Martinez, 820 F.3d 1113, 1128 (10th Cir. 2016) (citations omitted).
B
We agree with the district court that all plaintiffs whose claims proceeded to trial
engaged in protected speech. See McCullen v. Coakley, 573 U.S. 464, 488-89 (2014)
(leafletting and communicating ideas in normal conversation protected First Amendment
activity); Morse v. Frederick, 551 U.S. 393, 403 (2007) (political speech “at the core of”
the First Amendment); Riley v. Nat’l Fed’n of the Blind of N.C., Inc., 487 U.S. 781, 789
(1988) (solicitation of charitable contributions is protected speech); Edenfield v. Fane,
507 U.S. 761, 767 (1993) (commercial speech protected under First Amendment);
Heffron v. Int’l Soc’y for Krishna Consciousness, Inc., 452 U.S. 640, 647 (1981) (First
Amendment protection of newspaper distribution not lost merely because the paper being
distributed is sold, rather than given away); Branzburg v. Hayes, 408 U.S. 665, 681-82
(1972) (news gathering protected by First Amendment); Lovell v. City of Griffin, 303
U.S. 444, 452 (1938) (First Amendment protects distribution and publication of
newspapers); Speet v. Schuette, 726 F.3d 867, 878 (6th Cir. 2013) (holding “that
begging, or the soliciting of alms, is a form of solicitation that the First Amendment
protects”); Smith v. City of Fort Lauderdale, 177 F.3d 954, 956 (11th Cir. 1999) (“Like
other charitable solicitation, begging is speech entitled to First Amendment protection.”);
Loper v. N.Y.C. Police Dep’t, 999 F.2d 699, 704 (2d Cir. 1993) (“Begging frequently is
accompanied by speech indicating the need for food, shelter, clothing, medical care or
11

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 12 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 12
12a

transportation. Even without particularized speech, however, the presence of an unkempt
and disheveled person holding out his or her hand or a cup to receive a donation itself
conveys a message of need for support and assistance.”); Clark v. Comm’y for Creative
Non-Violence, 468 U.S. 288, 304 (1984) (“In a long line of cases, this Court has afforded
First Amendment protection to expressive conduct that qualifies as symbolic speech.”).
We turn to Wilson, whose claim the district court dismissed as lying outside First
Amendment protection. Wilson alleged that she was an “avid jogger” who ran
throughout Oklahoma City, including on medians covered by the Original and Revised
Ordinances. Because it determined that Wilson had not alleged facts demonstrating that
her jogging was expressive activity, the district court concluded she had not alleged that
she was engaged in any protected speech as contemplated by the First Amendment. We
agree that Wilson has not alleged facts demonstrating that her jogging was expressive
activity.
However, Wilson also alleged that she engaged in communicative activities while
out on a run—allegations the district court appears to have disregarded. Specifically, she
described stopping on medians to have personal conversations with her jogging
companions. Even though these conversations may not amount to grand rhetoric or
political soapbox oratory, they are nonetheless protected by the First Amendment. “Most
of what we say to one another lacks religious, political, scientific, educational,
journalistic, historical, or artistic value (let alone serious value), but it is still sheltered
from government regulation.” United States v. Stevens, 559 U.S. 460, 479 (2010)
(quotation and alteration omitted); see also Capitol Square Review & Advisory Bd. v.
12

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 13 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 13
13a

Pinette, 515 U.S. 753, 760 (1995) (private expression “fully protected under the Free
Speech Clause”); Connick v. Myers, 461 U.S. 138, 147 (1983) (speech on private matters
not within “one of the narrow and well-defined classes of expression which carries so
little social value, such as obscenity, that the State can prohibit and punish such
expression by all persons in its jurisdiction”); Givhan v. W. Line Consol. Sch. Dist., 439
U.S. 410, 413 (1979) (“We are unable to agree that private expression of one’s views is
beyond constitutional protection . . . .”); Eichenlaub v. Twp. of Indiana, 385 F.3d 274,
284 (3d Cir. 2004) (“[W]hile speech on topics of public concern may stand on the
‘highest rung’ on the ladder of the First Amendment, private speech (unless obscene or
fighting words or the like) is still protected on the First Amendment ladder.”).
The City’s argument that Wilson’s communicative activities are “incidental” to
her jogging and do not merit First Amendment protection is merely an attempt to
minimize Wilson’s protected speech to such a degree that it is extinguished. Wilson’s
communicative activities are distinct from her jogging and therefore subject to the normal
constitutional inquiry. Her speech does not lose protection either because she is
simultaneously engaged in non-expressive activity or because the City has deemed
Wilson’s speech valueless. After all, it would be a boring day if runners would be denied
the lingua franca of athletes in training. Accordingly, we reverse the dismissal of
Wilson’s First Amendment claim.5

5

Although the district court dismissed Wilson’s claim prior to summary
judgment and trial, Wilson submitted an affidavit and designated deposition in
support of the remaining plaintiffs’ case. She thus had a full and fair opportunity to
13

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 14 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 14
14a

C
Under the First Amendment, the extent to which the government may regulate
access to public property depends on the category of forum into which the property falls:
“the traditional public forum, the designated public forum, and the nonpublic forum.”
Verlo, 820 F.3d at 1129. Traditional public fora are those that “by long tradition or by
government fiat have been devoted to assembly and debate . . . .” Perry Educ. Ass’n v.
Perry Local Educators’ Ass’n, 460 U.S. 37, 45 (1983); McCullen, 573 U.S. at 476
(traditional public fora are areas that “have been used for purposes of assembly,
communicating thoughts between citizens, and discussing public questions”). In contrast,
designated public fora “are not generally open to the public for First Amendment activity
and are created by purposeful governmental action to allow speech activity.” Evans v.
Sandy City, 944 F.3d 847, 853 (10th Cir. 2019) (quotation omitted). All other fora are
nonpublic. Id.
To determine whether a particular property is a traditional public forum, we look
at “the objective characteristics of the property, such as whether, by long tradition or by
government fiat, the property has been devoted to assembly and debate.” Ark. Educ.
Television Comm’n v. Forbes, 523 U.S. 666, 677 (1998) (quotation omitted). We
conclude that Oklahoma City’s medians fall within this category. Objectively, medians
share fundamental characteristics with public streets, sidewalks, and parks, which are
quintessential public fora. See Cornelius v. NAACP Legal Def. & Educ. Fund, Inc., 473

present her claim and we do not have any concerns in adjudging her claim along with
those of the remaining plaintiffs.
14

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 15 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 15
15a

U.S. 788, 802 (1985); Hague v. Comm. for Indus. Org., 307 U.S. 496, 515 (1939)
(Roberts, J., concurring) (“Wherever the title of streets and parks may rest, they have
immemorially been held in trust for the use of the public and, time out of mind, have
been used for purposes of assembly, communicating thoughts between citizens, and
discussing public questions . . . .”); United States v. Grace, 461 U.S. 171, 179 (1983)
(“Sidewalks, of course, are among those areas of public property that traditionally have
been held open to the public for expressive activities and are clearly within those areas of
public property that may be considered, generally without further inquiry, to be public
forum property.”). Many medians in Oklahoma City, particularly those at intersections,
contain sidewalks. “The typical traditional public forum is property which has the
physical characteristics of a public thoroughfare, . . . [and] which has the objective use
and purpose of open public access or some other objective use and purpose inherently
compatible with expressive conduct.” Warren v. Fairfax Cty., 196 F.3d 186, 191 (4th
Cir. 1999) (en banc) (addendum to majority opinion) (citation omitted). Medians share
with streets and sidewalks the physical characteristics of public thoroughfares.
Moreover, medians are sandwiched by the uncontested public fora of streets and
sidewalks. In Grace, the Supreme Court found persuasive the lack of a demarcation
between areas traditionally perceived as traditional public fora and those the government
sought to treat as non-public fora. 461 U.S. at 179-80 (“There is no separation, no fence,
and no indication whatever to persons stepping from the street to the curb and sidewalks
that serve as the perimeter of the Court grounds that they have entered some special type
of enclave.”). We similarly decline to carve out a distinction between public streets—
15

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 16 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 16
16a

“the archetype of a traditional public forum,” Frisby v. Schultz, 487 U.S. 474, 480-81
(1988)—and the medians that lie in the middle of and are surrounded by those streets. If
the road that abuts a median on both sides is a public forum, the median itself also
qualifies.
The City highlights what it characterizes as differences between these
quintessential public fora and medians, citing the speed and volume of passing cars,
among other characteristics.6 These assertions may support the argument that a time,
place, and manner restriction is constitutional. See, e.g., Cox v. Louisiana, 379 U.S. 536,
554, (1965) (rejecting contention that someone could, “contrary to traffic regulations,
insist upon a street meeting in the middle of Times Square at the rush hour as a form of
freedom of speech or assembly”). But ample precedent holds that these characteristics do
not deprive public streets of their status as public fora. See Frisby, 487 U.S. at 481
(noting that the “character of those streets may well inform the application of the relevant
test, but it does not lead to a different test”); Warren, 196 F.3d at 195 (addendum to
majority opinion) (“The test is not whether the property was designed for expressive
activity, but whether the objective uses and purposes of the property are compatible with
the wide measure of expressive conduct characterizing public fora.”). Moreover, “[n]o
particularized inquiry into the precise nature of a specific street is necessary; all public

6

The City also argues that its medians lack benches, sidewalks, trails, or other
amenities that would render them similar to parks. Although the record shows many
medians with those amenities, albeit on streets with lower speed limits, the City’s
distinction does not account for the similarities between medians and the streets in
which they lie.
16

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 17 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 17
17a

streets are held in the public trust and are properly considered traditional public fora.”
Frisby, 487 U.S. at 481.
Because the proximity, speed, and volume of passing cars does not deprive streets
of their status as public fora, they similarly fail to strip medians of that status—after all,
streets are also not intended to have people in them most of the time. We reiterate: if the
street in which those cars are moving is a traditional public forum, so too is the median in
the center of that street. See Satawa v. Macomb Cty. Rd. Comm’n, 689 F.3d 506, 520
(6th Cir. 2012) (holding that given public use for expressive purposes, even a median “in
the middle of a busy eight-lane road, with a fifty mile-per-hour speed limit . . . [o]n
balance, . . . [was] a traditional public forum”).
Perhaps more significantly, the record demonstrates a “long tradition” of
expressive activity occurring on Oklahoma City’s medians. The record is replete with
examples of speech occurring on medians, from firefighter charity drives to protests to
political campaign signs. Testimony demonstrated that these activities have occurred for
a long time, with plaintiffs stating that the firefighters used medians “[a]s long as I can
remember;” that political signs were erected on medians for “probably 40 years” and had
“gone on forever;” and that people had stood on medians on Election Day since the early
1970s. The City attempts to minimize this tradition of expressive activity by
distinguishing between use for expressive activity “for years,” and use “for time out of
mind.” We decline to specify the precise number of years it takes to create a “long
tradition” of expressive activity. Suffice it to say that testimony that such expression has
occurred for as long as witnesses can remember is enough evidence of tradition.
17

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 18 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 18
18a

The City responds that it neither intended to create a public forum for expression,
nor invited the public to use the medians for expression. Although these considerations
are not irrelevant, we note that the question put to us is “whether, by long tradition or by
government fiat, the property has been devoted to assembly and debate.” Ark. Educ.
Television Comm’n, 523 U.S. at 677 (quotation omitted and emphasis added). “It is only
with respect to designated fora that the Supreme Court’s forum analysis has focused on
whether there has been purposeful government action creating a forum in a place not
traditionally open to assembly and debate.” First Unitarian Church of Salt Lake City v.
Salt Lake City Corp., 308 F.3d 1114, 1124 (10th Cir. 2002) (quotation omitted). For
property that has traditionally been open to the public, a lack of government fiat is not
dispositive. Rather, “objective characteristics are more important and can override
express government intent to limit speech.” Id. at 1125.
Further, the Oklahoma City Municipal Code itself defines streets to include
medians. Okla. City, Okla. Code ch. 32, art. I §§ 32-1(29), (59). And under Oklahoma
law, “[t]he title to streets, roads and public ways within the limits of a municipality which
have been dedicated and accepted by the municipal governing body is held by the
municipality in trust for public use and enjoyment.” Okla. Stat. tit. 11, art. XXXVI, § 36101. The City cannot now remove medians’ public fora status by fiat. See First
Unitarian Church, 308 F.3d at 1124 (“The government cannot simply declare the First
Amendment status of property regardless of its nature and its public use.”). Just as the
government may not “transform the character of the property by the expedient of
including it within the statutory definition of what might be considered a non-public
18

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 19 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 19
19a

forum parcel of property,” it similarly may not ignore an existing statutory provision
defining medians as streets, which are considered a public forum. See Grace, 461 U.S. at
180 (government’s “ipse dixit” does not determine the First Amendment status of
property). The evidence overwhelmingly demonstrates that in Oklahoma City, medians
have traditionally been used for expressive activity.
We hold that Oklahoma City’s medians are traditional public fora.7 See Reynolds,
779 F.3d at 225 (“There is . . . no question that public streets and medians qualify as
traditional public for[a].”); see also Cutting v. City of Portland, 802 F.3d 79, 83 (1st Cir.
2015) (holding that Portland’s medians were traditional public fora “on the understanding
that . . . the people of Portland have used median strips for expressive purposes in much
the same way that they have used parks and sidewalks”); Ater v. Armstrong, 961 F.2d
1224, 1226-27 (6th Cir. 1992) (in a challenge to a restriction from distributing literature
on medians and streets, analyzing medians and streets together to hold that the county’s
streets were traditional public fora).
D
Having concluded that medians are public fora, we analyze the Revised
Ordinance’s validity under the time, place, and manner framework. “It is well-settled
that even in a public forum the government may impose reasonable restrictions on the

7

We declined to answer this question in Evans because it was not
determinative. Sandy City’s ordinance was a valid time, place, or manner regulation
and therefore met the requirements for a law restricting speech even in a public
forum. 944 F.3d at 853-54. In this case, however, we squarely address the question
because the character of the forum affects the remainder of our analysis.
19

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 20 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 20
20a

time, place, and manner of protected speech, provided the restrictions are justified
without reference to the content of the regulated speech, that they are narrowly tailored to
serve a significant governmental interest, and that they leave open ample alternative
channels for communication of information.” Evans, 944 F.3d at 854 (quotation
omitted).
Plaintiffs argue that we should apply strict scrutiny because the Revised Ordinance
discriminates based on content. We need not reach this argument. As discussed below,
we ultimately conclude the Revised Ordinance fails even intermediate scrutiny. Because
it would necessarily also fail strict scrutiny, we assume for the purposes of our analysis
that the Revised Ordinance is content-neutral.8 See Reed, 135 S. Ct. at 2229-31
(describing the differences in standards applied to content-based and content-neutral
regulations).

8

Our independent examination of the record reveals troubling evidence of
animus against panhandlers in the passage of the Original and Revised Ordinances.
But because we conclude that the City’s Revised Ordinance fails even intermediate
scrutiny, we are not required to delve into whether its ostensible content-neutrality is
instead camouflage for the City’s desire to sacrifice speech in order to ban unpopular
panhandling. See McCullen, 573 U.S. at 486 (“Where certain speech is associated
with particular problems, silencing the speech is sometimes the path of least
resistance. But by demanding a close fit between ends and means, the tailoring
requirement prevents the government from too readily sacrificing speech for
efficiency.” (quotation and alteration omitted)); Reed v. Town of Gilbert, 135 S. Ct.
2218, 2227 (2015) (facially content-neutral restrictions “will be considered contentbased regulations of speech” if they “were adopted by the government because of
disagreement with the message the speech conveys” (quotation and alteration
omitted)); see also Elena Kagan, Private Speech, Public Purpose: The Role of
Governmental Motive in First Amendment Doctrine, 63 U. Chi. L. Rev. 413, 451-52
(1996).
20

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 21 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 21
21a

1
“For a content-neutral time, place, or manner regulation to be narrowly tailored, it
must not burden substantially more speech than is necessary to further the government’s
legitimate interests.” McCullen, 573 U.S. at 486 (quotation omitted). Although the City
is not required to show that its regulation is the least restrictive means of promoting its
interest, see Ward v. Rock Against Racism, 491 U.S. 781, 798 (1989), this burden
ensures that restrictions on speech are not permitted when either the harms or the
remedial effects of the government’s restrictions are supported only by speculation or
conjecture, or when the regulation burdens substantially more speech than is necessary to
further the government’s legitimate interests. See Edenfield, 507 U.S. at 770-71.9
In order to assess whether the Revised Ordinance is narrowly tailored, we must
measure it against the City’s asserted interest. The City claims that it passed the Revised
Ordinance to “protect pedestrians on medians from encroaching traffic, and drivers from
distractions caused by pedestrians on medians.”10 When we apply “our special standard

9

Although Edenfield, as well as Aptive Environmental, LLC v. Town of
Castle Rock, __ F.3d __, 2020 WL 2503912 (10th Cir. May 15, 2020), which we
address infra, dealt with restrictions on commercial speech, we have recognized that
“[t]he validity of time, place, and manner restrictions is determined under a standard
essentially identical to that governing the regulation of commercial speech.” Citizens
for Peace in Space, 477 F.3d at 1220 n.3; see Lorillard Tobacco Co. v. Reilly, 533
U.S. 525, 554 (2001) (recognizing “substantial similar[ity]” of the two tests). As a
result, we have applied commercial speech precedent when analyzing time, place,
and manner restrictions. See, e.g., Citizens for Peace in Space, 477 F.3d at 1220.
10

Although a government’s interest in public safety is clearly significant, see
McCullen, 573 U.S. at 486, it is not enough for the City to use broad safety
justifications. Rather, “to assess whether a restriction is an appropriate ‘fit’ to some
21

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 22 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 22
22a

of de novo review” and evaluate the record as a whole to ensure that a “forbidden
intrusion on the field of free expression” has not occurred, Citizens for Peace in Space,
477 F.3d at 1219-20, we conclude that the City has not met its burden to show that its
recited harms are real, see Aptive Envtl., 2020 WL 2503912 at *19.
When we examine the evidence the City offers in support of the Revised
Ordinance, we conclude that the City’s evidence is insufficient to demonstrate that the
City’s “recited harms are real” or that the Revised Ordinance “will in fact alleviate these
harms in a direct and material way.” Citizens for Peace in Space, 477 F.3d at 1221.11
Critically, this record is devoid of evidence that accidents involving vehicles and

important government interest, it is necessary that the government interest be
specifically defined.” Citizens for Peace in Space, 477 F.3d at 1221, 1223.
“Otherwise, the narrowly tailored analysis more closely resembles the ‘reasonably
necessary’ standard used in reviewing restrictions on speech in areas that are not
public forums.” Id. “[T]he question of narrow tailoring must be decided against the
backdrop of the harms that a particular set of [responsive] measures are designed to
forfend.” Id. As a result, “the burden falls on the City to show that its ‘recited harms
are real . . . and that the regulation will in fact alleviate these harms in a direct and
material way.’” Id. at 1221 (quoting Turner Broad. Sys., Inc. v. FCC, 512 U.S. 622,
664 (1994)). As we explained in Aptive Environmental, these requirements are
critical to prevent restrictions on speech designed to advance other interests that
would not on their own justify the burden on expression. 2020 WL 2503912, at *18
(citing Rubin v. Coors Brewing Co., 514 U.S. 476, 487 (1995)).
11

The City has provided ample evidence of citizen complaints about
panhandling across the City, including instances of panhandlers stepping into the
streets, but these complaints do not meet the City’s burden. The City must
demonstrate that its articulated interest of “protect[ing] pedestrians on medians from
encroaching traffic, and drivers from distractions caused by pedestrians on medians,”
is concrete and non-speculative. See id. It cannot meet this burden by proffering
only evidence that there are panhandlers on medians or that those panhandlers are
unpopular without showing that panhandlers in medians create a public safety risk.
22

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 23 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 23
23a

pedestrians on medians in Oklahoma City is an actual issue, as opposed to a hypothetical
concern. There is neither evidence of any accident involving a pedestrian on a median,
fatal or not, nor evidence that a pedestrian on a median caused an accident or distracted a
driver enough to compromise the safety of the pedestrian or the driver.12
Further, although city officials identified pedestrian presence on medians as one of
their highest concerns, they were unable to identify any accidents in which a pedestrian
on a median was involved. Fowler testified that in his career, he had seen “a couple
hundred” vehicles on medians, although he could neither identify any data, reports, or
other evidence to support that estimate, nor describe any involvement of pedestrians in
these anecdotes. Even if, as the City asserts, there is an increasing number of pedestrians
on medians, there is no objective evidence that these pedestrians are getting hurt or
hurting others. If medians present the danger that the City argues they do, we are baffled
as to why there is no “impersonal hard evidence” of harm arising from their presence.
See Aptive Envtl., 2020 WL 2503912, at *27 (Hartz, J., concurring) (recognizing that
“when a law is justified as a protection of health or safety,” it can “be measured by
impersonal ‘hard’ evidence”).
In contrast, plaintiffs, who apparently spend significantly more time on medians

12

The City points to testimony by Chief Citty and Fowler that they have seen
car tracks on medians, but these marks do not demonstrate that a pedestrian was
present when the marks were created. Further, even evidence of one or a very limited
number of such accidents over an extended period of time might not rise to the level
of evidence necessary to substantiate the government’s interest in enacting this
particular ordinance. Because there is no evidence of any such accident, we need
not, and do not, speculate where the threshold of materiality might lie.
23

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 24 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 24
24a

than do any city officials, presented evidence demonstrating that they feel safer on
medians than on sidewalks. They testified that cars move slowly at the portions of
medians on which they stand. They also testified that their chosen medians are wide and
protect them from encroaching cars. Drivers testified that they were more aware and
drove more safely both when approaching intersections—where plaintiffs are more likely
to stand—and when around pedestrians on medians. And the City’s chief traffic engineer
testified that there is a “safety zone” for pedestrians eighteen inches beyond a curb that
gives a driver adequate time to regain control of a vehicle after hitting the curb. There is
also evidence that most pedestrian fatalities occur at “mid-block” locations—but again,
not on medians—whereas plaintiffs testified they prefer to stand at the ends of medians,
close to intersections.
The City contends that the government is entitled to prevent anticipated harms and
that its predictive judgments are entitled to substantial deference. It further argues that it
may rely on reasonable inferences drawn from substantial evidence to support its
legislative conclusions and that it may rely on common sense rather than empirical
studies or data to support its assessment of the harm. It is true that municipalities remain
free to determine what type of evidence they will use to support proposed remedial
regulations, and there is no constitutional requirement that governments “compile data or
statistics” in particular. Evans, 944 F.3d at 858; see also Aptive Envtl., 2020 WL
2503912, at *19 (recognizing that the Supreme Court has not “require[d] that empirical
data come accompanied by a surfeit of background information,” but rather has allowed
reference to studies, anecdotes, history, consensus, and common sense to support a
24

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 25 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 25
25a

municipality’s regulation (quotation and alteration omitted)). We further acknowledge
that a government need not wait for accidents or fatalities to address its interest through
safety regulations. See Evans, 944 F.3d at 858.
Nevertheless, the City’s prerogative to determine how to support a regulation does
not extinguish its burden “to show that its recited harms are real.” See Citizens for Peace
in Space, 477 F.3d at 1221. The evidence in this record does not meet that burden.
Moreover, when evaluating the sufficiency of the municipality’s evidence, regardless of
form, we evaluate that evidence “in light of the cases where those categories of evidence
have previously been invoked.” See, e.g., Aptive Envtl., 2020 WL 2503912, at *19, *21
(holding Castle Rock’s anecdotal and “common sense” evidence to be “woefully
insufficient” when compared to similar evidence held sufficient in Florida Bar v. Went
For It, Inc., 515 U.S. 618 (1995)). The City’s evidence does not stand up to this review.
Compare Evans, 944 F.3d at 854-55 (noting that the ordinance was supported by “several
close calls where accidents involving pedestrians and vehicles could have been
devastating” and city officials had personally surveyed the relative safety of medians
(quotation and alteration omitted)) with Aptive Envtl., 2020 WL 2503912, at *21
(deeming Castle Rock’s evidence “woefully insufficient” because “Castle Rock has
provided us no studies, no supportive evidence-based findings, and no survey results” and
“there [wa]s no evidence that commercial solicitors are the source of any public-safety
problems”). We therefore conclude that the City has not met its burden to demonstrate
that its interest is based on a concrete, non-speculative harm. See Citizens for Peace in
Space, 477 F.3d at 1221; Golan v. Holder, 609 F.3d 1076, 1084 (10th Cir. 2010)
25

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 26 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 26
26a

(Regulations “must be directed at a real, and not merely conjectural, harm.”).
2
For a regulation to be narrowly tailored, it must not only promote “a substantial
government interest,” but that interest must “be achieved less effectively absent the
regulation, and . . . not burden substantially more speech than is necessary to further the
government’s legitimate interests.” Verlo, 820 F.3d at 1134 (quotation omitted).
Although a regulation “need not be the least restrictive or least intrusive means” of
furthering this interest, the First Amendment requires a “‘close fit between ends and
means’ to ensure speech is not sacrificed for efficiency.” Evans, 944 F.3d at 856
(quoting McCullen, 573 U.S. at 486). “[T]he government may not forgo options that
could serve its interests just as well, if those options would avoid substantially burdening
the kind of speech in which Plaintiffs wish to engage.” Verlo, 820 F.2d at 1135
(quotation and alterations omitted).
To evaluate this fit, we begin by reviewing the evidence the City uses to support
the “means,” i.e., the restrictions imposed by the Revised Ordinance. Our evaluation of
this evidence reveals many of the same weaknesses we identified when analyzing
whether the City’s evidence met its burden to show the existence of a real, nonconjectural harm. The fundamental problem is that the City has presented no evidence of
concrete harm arising from the presence of pedestrians on its medians. This failure
infects our analysis of both the “ends” and the “means.”
Chief Citty and Fowler testified that in their opinion, pedestrians are in danger
near roadsides, including on medians. They identified medians as the second most
26

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 27 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 27
27a

dangerous place for pedestrians, after traffic lanes, because medians expose pedestrians
to traffic on both sides. To justify the Revised Ordinance’s applicability to medians on
streets with speed limits above forty miles per hour, the City presented information about
the relative risk of fatalities in auto-pedestrian accidents given different vehicle speeds.13
But not only did this generic “speed kills” evidence not address medians, it also did not
address any other factor, including the relationship between fatalities and the width or
composition of medians, which we held relevant in Evans. 944 F.2d at 858 (“The
Ordinance only prohibits sitting or standing on narrow or unpaved medians where it
would be dangerous to do so. This is the sort of close fit the narrow tailoring requires.”).
The Revised Ordinance places a severe burden on plaintiffs’ speech. In Evans, we
concluded that the ordinance’s burden on speech was minimal because had Evans—the
plaintiff in that case—stood ten feet farther down the same median, he would have been
in compliance with the ordinance. Id. at 857. Under those circumstances, we held that
Evans had not shown that a ten-foot difference substantially burdened his speech. Id.
There is no similarly simple solution for plaintiffs in this case. The Revised Ordinance
entirely prohibits plaintiffs’ presence on the more than four hundred affected medians.
They cannot walk mere feet down a median to reach a legal standing spot. Instead, they

13

As part of its argument, the City occasionally refers to alleged distractions
created by pedestrians on medians. But it identifies no evidence in the record
supporting the proposition that pedestrians on medians provide such distractions that
they affect drivers’ ability to drive safely. Moreover, drivers testified that
pedestrians are used to seeing speakers on medians and that pedestrian presence
makes them more aware of their driving.
27

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 28 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 28
28a

must leave the median and either stand on a roadside or sidewalk or travel to an
unaffected median on a different block.
Moreover, the fact that plaintiffs may still engage in their speech on roadsides,
sidewalks, or other medians does not mean that their speech is not burdened by the
Revised Ordinance.14 See McCullen, 573 U.S. at 487 (concluding that the regulation
substantially burdened McCullen’s speech despite her persuasion of eighty women not to
terminate their pregnancies because she “‘reache[d] far fewer people’ than she did before
the amendment” (citations and quotation omitted)). The Revised Ordinance is solely
responsible for plaintiffs’ inability to stand on these medians, the most effective place for
their communication.
3
In light of the severity of this burden, the City has failed to demonstrate that less
burdensome alternatives would not achieve its interest in median safety. As the City
acknowledges in its brief, under McCullen, “the government must demonstrate that
alternative measures that burden substantially less speech would fail to achieve the
government’s interests, not simply that the chosen route is easier.” 573 U.S. at 495; see
also ACLU of Colo. v. City & Cty. of Denver, 569 F. Supp. 2d 1142, 1176 (D. Colo.
2008) (“[T]he more extensive the restrictions, the more precise the justifications for that
restriction must be.”). The City asserts that “narrow tailoring does not require [it] to

14

We also note that the passage of the Revised Ordinance was quickly
followed by the expansion of the existing Aggressive Panhandling Ordinance, which
further restricted these alternative locations.
28

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 29 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 29
29a

undertake the futile task of identifying, reviewing[,] and rejecting alternatives that could
not possibly protect pedestrians on medians from vehicles, or drivers of vehicles from
distractions caused by pedestrians.” But the only way for the City to evaluate alternatives
is to consider them—precisely the burden articulated in McCullen. Because the City
presents us with no evidence that it contemplated the relative efficacy or burden on
speech of any alternatives, we conclude it has not met its burden.
Plaintiffs propose several alternatives that would be less burdensome on speech
but would still advance the City’s asserted interest in median safety. These include
specifying times during which pedestrians can stand on medians, limiting the Revised
Ordinance’s application to the most dangerous intersections, requiring pedestrians to
stand more than eighteen inches back from the curb, or applying the ban to careless or
negligent behavior.
The City dismisses each option out of hand. It asserts it cannot limit the Revised
Ordinance’s application to certain times because “pedestrian accidents occur at all times
of day.” Although this may be true, the record evidence demonstrates that these
accidents certainly are not equally distributed throughout the day. For example, the
City’s evidence demonstrates that “pedestrian collisions are highest in hours where the
sun has set or is setting.”15 Again, in addition to the fact that these collisions are not

15

We note also that the report presenting this data proposes increased
pedestrian infrastructure, education campaigns for drivers and pedestrians about the
most dangerous times of the year for pedestrians, and “traffic-demand management
strategies” to increase safety. It does not propose limiting or banning pedestrian
presence in any manner.
29

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 30 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 30
30a

related to medians, a cursory statement implying that a time-based restriction would not
stop all pedestrian injuries does not sufficiently demonstrate that the City “seriously
undertook to address the problem with less intrusive tools readily available to it.”
McCullen, 573 U.S. at 494.
The City further states it cannot apply the Revised Ordinance only to dangerous
intersections because six months of data—in contrast to the twelve-plus years of data in
the record—demonstrate that the dangerousness of intersections can vary over time. But
the City has already identified the intersections where fatalities have occurred since at
least 2003, and it provides no argument as to why targeting only these intersections
would fail to achieve its interest. Similarly, a city planning report, adopted by the City
Council and introduced by plaintiffs at trial, identifies the intersections at which autopedestrian accidents most frequently occurred from 2003 to 2015, and the times of day—
early to mid-evening—when accidents were most frequent. Perhaps this data correlates
to a street’s speed limit; perhaps not. But we can say for certain there is no evidence in
the record that the City considered any such correlation in creating its median ban. Given
that the City has at its disposal information regarding the relative safety of its medians at
different times and in different locations, its failure to consider alternatives is especially
harmful to its argument.16 The data supports numerous alternatives to a total ban on

16

We also note that the City employs a chief traffic engineer, who did not
participate in or contribute to the development of the Original or Revised Ordinances.
He was also not requested to conduct any studies, evaluations, or surveys of the
City’s medians to assess their relative safety, or to provide any recommendations
regarding safety measures for pedestrians on medians.
30

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 31 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 31
31a

presence on affected medians—the “easier” (and far more burdensome to speech)
alternative that was selected by the City.17
As for plaintiffs’ proposal that the City require pedestrians to stay further than
eighteen inches back from the curb, the City summarily responds that vehicles could
travel further than eighteen inches. But it offers no evidence of the frequency with which
vehicles travel further than eighteen inches, does not account for the fact that its own bus
stops are placed at that distance from the curb, and disregards the testimony of its own
chief traffic engineer that the eighteen-inch distance provides a “safety zone” for
pedestrians.18
We also note that as in McCullen, the City has existing laws that could advance its
interest in pedestrian safety on medians. For example, one law prohibits people from
stepping into the street. City officials dismissed this alternative, stating that “it’s very

17

We note that the characteristics of medians that plaintiffs argue make them
“safe,” see supra, also provide information that would help the City craft an
alternative to the Revised Ordinance that on this record would be less burdensome to
plaintiffs’ speech. For example, the City could limit the ordinance’s application to
medians that are both insufficiently wide and located on streets where the actual
speed of passing cars poses a substantial danger to pedestrians. Or it could only
apply the Revised Ordinance to the mid-block portions of medians on a given block.
The City has more than enough information to craft an ordinance that burdens less
speech and is closely aligned with its stated interest of public safety, should it decide
to do so.
18

We are also not convinced by the City’s cursory response that it could not
regulate pedestrian activity on roadsides or sidewalks. It already does. See, e.g.,
§§ 30-428, 30-430 (barring aggressive panhandling within twenty feet of outdoor
restaurant seating, within fifty feet of a mass transportation stop, within fifty feet of
school property, after dark, or of minors); § 30-81(f) (barring obstruction of
pedestrian traffic on sidewalks).
31

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 32 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 32
32a

hard for the police to be there when [a person] actually step[s] off.” But ease of
application is not a sufficient reason to burden First Amendment rights. See McCullen,
573 U.S. at 495 (stating that “[o]f course” the state’s regulation would make law
enforcement’s “job so much easier,” but that the burden requires “demonstrat[ing] that
alternative measures that burden substantially less speech would fail to achieve the
government’s interests, not simply that the chosen route is easier”).
In addition to our conclusion that the City has not demonstrated that pedestrian
presence on medians is a concrete, non-speculative problem, we also conclude that the
City’s summary dismissal of alternatives is insufficient. “[G]iven the vital First
Amendment interests at stake, it is not enough for [the City] simply to say that other
approaches have not worked.” McCullen, 573 U.S. at 496. This is particularly so when
there is no evidence that the City has tried, or even considered, any less-burdensome
alternatives. Instead, the City relies on unsupported statements that hypothetically these
alternatives could not possibly work. The City “has not shown that it seriously undertook
to address the problem with less intrusive tools readily available to it[, n]or has it shown
that it considered different methods that other jurisdictions have found effective.”
McCullen, 573 U.S. at 494; see also Cutting, 802 F.3d at 91 (“But the City did not try—
or adequately explain why it did not try—other, less speech restrictive means of
addressing the safety concerns it identified.”); Reynolds, 779 F.3d at 231 (“[T]he burden
of proving narrow tailoring requires the County to prove that it actually tried other
methods to address the problem.”).

32

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 33 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 33
33a

4
The underinclusive nature of the Revised Ordinance also demonstrates at best a
loose fit between its means and the City’s safety interest. Under the Revised Ordinance’s
exception for legally authorized work, the City permits a non-profit named OKC
Beautiful to landscape its medians. Through OKC Beautiful, volunteers from private
businesses and organizations may stand, sit, or otherwise stay on medians to landscape
the medians for the City and, in return for their services, install signs on the medians
publicizing the entity’s sponsorship.
Therefore, at the same time as OKC Beautiful volunteers of all ages are permitted
to remain on medians for substantial periods of time, the City entirely bars plaintiffs’
presence. Surely if it is safe for volunteers to be on the medians long enough to beautify
them, it is also safe for plaintiffs to be on the medians for similar periods of time. But the
Revised Ordinance only allows for the volunteers’ activities, not for plaintiffs’ protected
expression. The City provides no real answer to this discrepancy, stating only that “[a]
regulation is not otherwise objectionable simply because it doesn’t address all potential
problems.” But on this record, plaintiffs’ expression is protected by the First
Amendment, whereas the volunteers’ beautification efforts are not. See Williams-Yulee
v. Fla. Bar, 575 U.S. 433, 448-49 (2015) (“[U]nderinclusiveness can raise doubts about
whether the government is in fact pursuing the interest it invokes, rather than disfavoring
a particular speaker or viewpoint” and “can also reveal that a law does not actually
advance a compelling interest” (quotation omitted)). The City has thus selectively
criminalized activities protected by the First Amendment while allowing unprotected
33

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 34 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 34
34a
19

activities to proceed.

5
We conclude that the Revised Ordinance is not narrowly tailored to the
problem it purports to address. The City has utterly failed to demonstrate the
requisite “‘close fit between ends and means’ to ensure speech is not sacrificed for
efficiency.” Evans, 944 F.3d at 856 (quoting McCullen, 573 U.S. at 486); cf. id.
(holding that the ordinance was narrowly tailored because the burden on Evans’
speech was insignificant and because the regulation directly related to the exact
information city officials had compiled regarding safety of medians in their city).
The City has taken “the extreme step of closing a substantial portion of a traditional
public forum to all speakers . . . without seriously addressing the problem through

19

The City cites Williams-Yulee for the proposition that underinclusiveness is
only relevant if a regulation is “riddled with exceptions.” In Williams-Yulee, the
Court concluded that the law “raise[d] no fatal underinclusivity concerns” because it
“aim[ed] squarely at the conduct most likely to” advance its interest; it “appli[ed]
evenhandedly to all;” and “unlike some laws that we have found impermissibly
underinclusive, [the law at issue in that case] is not riddled with exceptions” because
it “contains zero exceptions to its ban on personal solicitation.” 575 U.S. at 449.
Certainly, a regulation’s being “riddled with exceptions” demonstrates “red flag[s].”
Id. But nothing in Williams-Yulee suggests underinclusiveness is only relevant when
multiple exemptions are present. And in any event, the exception to the Revised
Ordinance is, on this record, not constitutionally protected activity. Therefore, the
Court’s conclusion in Williams-Yulee that it would “not punish Florida for leaving
open more, rather than fewer, avenues of expression” does not apply. Id. at 452.
Finally, unlike the regulation at issue in that case, the Revised Ordinance is not
“aim[ed] squarely at the conduct most likely to” achieve the City’s interest. Id. The
evidence demonstrates that pedestrians are getting harmed in myriad other locations,
but not on medians. Therefore, Williams-Yulee does not change our conclusion that
the exemption for OKC Beautiful volunteers is pertinent and supports our holding
that the Revised Ordinance is not narrowly tailored.
34

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 35 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 35
35a

alternatives that leave the forum open for its time-honored purposes. The [City] may
not do [so] consistent with the First Amendment.” McCullen, 573 U.S. at 497; see
also Reynolds, 779 F.3d at 232 (“[T]here is no evidence that the County ever tried to
improve safety by prosecuting any roadway solicitors who actually obstructed traffic,
or that it ever even considered prohibiting roadway solicitation only at those
locations where it could not be done safely. Without such evidence, the County
cannot carry its burden of demonstrating that the Amended Ordinance is narrowly
tailored.”).
E
Although “the First Amendment does not guarantee the right to employ every
conceivable method of communication at all times and in all places, a restriction on
expressive activity may be invalid if the remaining modes of communication are
inadequate.” Evans, 944 F.3d at 860 (quoting City Council of L.A. v. Taxpayers for
Vincent, 466 U.S. 789, 812 (1984)).20 Analysis of alternative channels “must give
practical recognition to the facts giving rise to the restriction on speech.” Citizens for
Peace in Space, 477 F.3d at 1226. Accordingly, we “ask whether, given the particular
[governmental interest], the geography of the area regulated, and the type of speech
desired, there were ample alternative channels of communication.” Id. “To determine

20

Our conclusion that the City has failed to show that the Revised Ordinance
is narrowly tailored means we are not required to address whether the Revised
Ordinance leaves open ample alternative channels of communication. See, e.g.,
McCullen, 573 U.S. at 496 n.9. However, because this issue is likely to arise again,
we address it. See Reynolds, 779 F.3d at 232 n.5.
35

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 36 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 36
36a

whether alternative channels are adequate, courts assess in part the speaker’s ability to
reach his or her intended audience.” Evans, 944 F.3d at 860 (citing Ward, 491 U.S. at
802).
In this case, the parties’ dispute regarding this inquiry is one of amount. The City
argues that plaintiffs have not been “completely foreclosed” from either using medians or
engaging in their chosen speech, whereas plaintiffs argue that the lack of viable
communicative spaces means that ample alternative channels do not exist. We agree with
plaintiffs. A valid time, place, and manner restriction “leave[s] open ample alternative
channels of communication.” Frisby, 487 U.S. at 482. The inquiry is not whether the
restriction completely forecloses speech. And not only must there be ample channels;
those channels must also be adequate. See Taxpayers for Vincent, 466 U.S. at 812. For
example, the Supreme Court has held that ample channels existed when an ordinance
allowed picketing in neighborhoods, but barred protesters from picketing a single
residence, see Frisby, 487 U.S. at 483-84, or when the government restriction only
imposed an eight-foot distance between demonstrators and their audience, see Hill v.
Colorado, 530 U.S. 703, 729-30 (2000). And in Evans, we held that ample alternative
channels existed when a pedestrian could stand on the same median ten feet away and
comply with the ordinance. 944 F.3d at 860.
Although we have recognized that “[c]itizens do not have a right to convey their
message in any manner they prefer, . . . they [do] have a right to convey their message in
a manner that is constitutionally adequate.” Citizens for Peace in Space, 477 F.3d at
1226. For plaintiffs such as charitable solicitors, political campaigners, protestors, or
36

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 37 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 37
37a

panhandlers who engage with passing cars—or, more realistically, with their drivers—the
record does not support the district court’s conclusion that moving to a sidewalk is an
adequate alternative. Record evidence showed that for many of these plaintiffs,
communications from sidewalks and roadsides would not provide adequate alternative
opportunities for communication. Signs and communications from the sidewalk would
not be as visible to those in cars, and plaintiffs would have to compete with a jumble of
other signs and messages from storefronts. And, for those seeking to hand out material or
seeking to solicit funds—all of which we have held to be expressive activity—neither
roadsides nor sidewalks would provide safe and direct access to the driver, who often will
be a car’s only occupant. Rather, solicitors must step into the road to close the distance
between drivers and themselves, making exchanges from roadsides more difficult and
dangerous than those from medians. As one councilman noted while deliberating the
ordinance, “it’s the entry into the street which is where all the violent impact occurs.”
Plaintiffs are also out of the sightline of drivers when on sidewalks. As plaintiff
politician Faulk testified, a sidewalk is “just not as effective” because “if you have eight
to nine lanes of traffic and you’re standing on a street corner, you’re only reaching the
traffic right next to you, and so maybe you see two lanes of traffic and they see what
you’re holding up.” In contrast, “[i]n the median, you catch traffic coming from all four
directions and you catch traffic from every lane in each direction. So you may be
reaching as many as 16 lanes of traffic sometimes.” Just as in real estate, location matters
in some constitutional questions. Cf. McCullen, 573 U.S. at 490 (holding
unconstitutional buffer zone restriction requiring plaintiffs to stand a substantial distance
37

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 38 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 38
38a

away from an abortion provider’s driveway).
Further, record evidence demonstrates that there are “an extremely limited
number” of medians unaffected by the Revised Ordinance on which plaintiffs can engage
in their expression. According to the City, there are only 103 unaffected medians, in
contrast to approximately four hundred affected ones. And by the district court’s own
estimate, fewer than eighty of those 103 are accessible to plaintiff McCraw, plaintiff
Marshall, and other panhandlers due to the Aggressive Panhandling Ordinance. Plaintiffs
testified that “[i]t’s getting hard to find a spot” because “[t]here’s just not that many
places for panhandlers and Curbside vendors to be.” Competition for the few remaining
unaffected medians is “fierce” and even violent, inhibiting plaintiffs’ ability to use them.
Moreover, even if a plaintiff is lucky enough to secure a spot, unaffected medians can be
significantly less effective at conveying speech because fewer vehicles are present. This
evidence distinguishes this case from our decision in Evans, where we concluded that
Evans did not “distinguish his ability to communicate with his target audience on affected
or unaffected medians” and failed to demonstrate why a legal position ten feet down a
median was constitutionally inadequate.21 944 F.3d at 860. For plaintiffs who must
engage with passing drivers for their expression, the City has also not demonstrated that

21

The City pointed to evidence that the number of Curbside vendors has
increased and that the Oklahoma Libertarian Party was able to obtain the requisite
number of signatures on a ballot initiative petition. But evidence demonstrates that
Curbside’s sales have decreased under the Revised Ordinance, which better reflects
the inadequacy of the unaffected medians, and that the OLP garnered most of its
signatures before the Revised Ordinance took effect.
38

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 39 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 39
39a

there are ample adequate alternative channels for plaintiffs’ speech.22
F
For the above reasons, we conclude that the City has not met its burden to
demonstrate that the Revised Ordinance is a constitutionally permissible time, place, and
manner restriction. We therefore hold that the Revised Ordinance violates the First
Amendment.
III
Turning to plaintiffs’ due process claims, we first consider the district court’s
dismissal of the claim that the Revised Ordinance violates their fundamental right to
move or linger in traditionally open public places.
In addition to the explicitly recognized right to interstate travel, the Supreme Court
has hinted at a right to freedom of local movement. In City of Chicago v. Morales, 527
U.S. 41 (1999), a three-judge plurality noted that “it is apparent that an individual’s
decision to remain in a public place of his choice is as much a part of his liberty as the
freedom of movement inside frontiers that is a part of our heritage or the right to move to

22

Our concerns regarding the adequacy of alternatives do not extend to
Wilson, Schindler, and Red Dirt Report. Wilson provides no evidence to support a
conclusion that she cannot stop to talk with her jogging companions on sidewalks or
roadsides, rather than medians. Schindler likewise provides no evidence that aside
from his preference to run on grass along the marathon route—which does not pertain
to the effectiveness of his expression—his expressive activity cannot be equally
accomplished on sidewalks or roadsides. Finally, Red Dirt Report does not provide
enough evidence to demonstrate that sidewalks and roadsides across the street from
the event are not adequate alternatives for it to report the news. Although medians
present benefits by being “a little raised above the road” and out of the way of the
first responders, we do not see sufficient evidence in the record to show that a nearby
sidewalk or roadside across the street would not be an adequate alternative.
39

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 40 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 40
40a

whatsoever place one’s own inclination may direct[,] identified in Blackstone’s
commentaries.” Id. (plurality) at 54 (citations and quotations omitted); see also Kent v.
Dulles, 357 U.S. 116, 126 (1958) (addressing a claim regarding international travel, but
noting that “[f]reedom of movement is basic in our scheme of values”); Papachristou v.
City of Jacksonville, 405 U.S. 156, 164 (1972) (stating that walking, loitering, and
similar activities “are historically part of the amenities of life as we have known them”).
But see Bray v. Alexandria Women’s Health Clinic, 506 U.S. 263, 277 (1993) (stating
that “a purely intrastate restriction does not implicate the right of interstate travel”).
Several of our sibling circuits have explicitly held that a fundamental right to the
freedom of movement exists. See Johnson v. City of Cincinnati, 310 F.3d 484, 498 (6th
Cir. 2002) (“[W]e hold that the Constitution protects a right to travel locally through
public spaces and roadways.”); Nunez by Nunez v. City of San Diego, 114 F.3d 935, 944
(9th Cir. 1997) (“Citizens have a fundamental right of free movement . . . .” (citation
omitted)); Lutz v. City of York, Pa., 899 F.2d 255, 268 (3d Cir. 1990) (“[T]he right to
move freely about one’s neighborhood or town, even by automobile, is indeed implicit in
the concept of ordered liberty and deeply rooted in the Nation’s history,” therefore a
fundamental right.). Other circuits have concluded that individuals hold a liberty interest
in the freedom of movement but declined to deem the right fundamental. See Catron v.
City of St. Petersburg, 658 F.3d 1260, 1266 (11th Cir. 2011) (without addressing whether
the right is fundamental, holding that “[p]laintiffs have a constitutionally protected liberty
interest to be in parks or on other city lands of their choosing that are open to the public
generally”); Doe v. City of Lafayette, 377 F.3d 757, 769-70 (7th Cir. 2004) (asserting
40

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 41 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 41
41a

that the “right to enter the parks to loiter or for other innocent purposes . . . is not
unimportant, [but] we cannot say that existing authority establishes that it is
“fundamental”). Other circuits have held that regardless of a right to intrastate travel,
there is no right to remain on a specific piece of public property. See Williams v. Town
of Greenburgh, 535 F.3d 71, 76 (2d Cir. 2008) (holding that although there is a right to
intrastate movement, “it would distort the right to free travel beyond recognition to
construe it as providing a substantive right to cross a particular parcel of land, enter a
chosen dwelling, or gain admittance to a specific government building” (emphasis
omitted)).
We have previously concluded that the fundamental right to freedom of movement
“appl[ies] only to interstate travel.” D.L. v. Unified Sch. Dist. No. 497, 596 F.3d 768,
776 (10th Cir. 2010). In D.L., plaintiffs’ claim that their fundamental right to travel was
infringed by their expulsion from a public school for non-residency failed because “the
travel that Plaintiffs claim was restricted was intrastate travel.” Id. Under D.L.,
plaintiffs’ argument that they have a fundamental right to remain on Oklahoma City’s
medians—a purely intrastate location—similarly fails. Although plaintiffs raise out-ofcircuit decisions and Supreme Court dicta to support their claim, “[w]e must generally
follow our precedents absent en banc consideration.” United States v. Lira-Ramirez, 951
F.3d 1258, 1260 (10th Cir. 2020).
Concluding that plaintiffs do not have a fundamental right to remain on the City’s
medians, we analyze their due process claim under rational-basis review. To satisfy this
test, the Revised Ordinance “need only be rationally related to a legitimate government
41

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 42 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 42
42a

purpose.” Powers v. Harris, 379 F.3d 1208, 1215 (10th Cir. 2004). “[W]e look only to
whether a reasonably conceivable rational basis exists [and] . . . are not allowed to second
guess the wisdom of legislative policy-determinations.” Ramsey Winch Inc. v. Henry,
555 F.3d 1199, 1210 (10th Cir. 2009) (citation and quotation omitted). Although we
determined above that the City’s evidence failed intermediate scrutiny in the First
Amendment context, it passes the lower bar of rational-basis review applicable when we
review due process challenges to non-fundamental rights. Public safety is a significant
government interest and, although the Revised Ordinance may not be narrowly tailored or
provide ample adequate alternatives, it is conceivably rationally related to public safety.
IV
Finally, we consider plaintiffs’ claim that the Revised Ordinance is
unconstitutionally vague, on which the court granted summary judgment to the City.
“The void-for-vagueness doctrine requires that a penal statute define the criminal offense
with sufficient definiteness that ordinary people can understand what conduct is
prohibited and in a manner that does not encourage arbitrary and discriminatory
enforcement.” United States v. Hunter, 663 F.3d 1136, 1141 (10th Cir. 2011) (quotation
omitted).
The Revised Ordinance exempts “[i]ndividuals responding to any emergency
situation.” § 32-458(e)(4). We hold that the term “emergency,” as used in the Revised

42

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 43 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 43
43a
23

Ordinance, is not unconstitutionally vague.

An “emergency” is commonly understood

to mean “an unforeseen combination of circumstances or the resulting state that calls for
immediate action;” “an urgent need for assistance or relief,” Emergency, MerriamWebster, https://www.merriam-webster.com/dictionary/emergency (last visited June 24,
2020); “[a] juncture that arises or ‘turns up;’” or “a state of things unexpectedly arising,
and urgently demanding immediate action,” Emergency, Oxford Eng. Dict.
https://www.oed.com/view/Entry/61130?redirectedFrom=emergency#eid (last visited
June 24, 2020).
We do not mean to minimize the importance of plaintiffs’ proposed scenarios or
their real need to stand on medians, but we conclude there is a readily discernible
difference between, on the one hand, “a candidate campaigning in an unexpectedly close
election, an activist protesting an unforeseen event, a panhandler soliciting for
unexpected expenses, a reporter covering breaking news, or a jogger responding to a text,
call, cramp, or untied shoelace,” and on the other hand, someone having to stand on a

23

We acknowledge the parties’ dispute regarding the applicable definition.
The Original Ordinance excised most of the existing definition, leaving “emergency”
to mean “an unforeseeable occurrence of temporary duration.” Ordinance 25,283.
The Revised Ordinance kept that definition. Ordinance 25,777. Later, Ordinance
25,709 repealed and replaced the definition passed in the Original Ordinance. Okla.
City, Okla. Ordinance 25,709 (Aug. 30, 2017). Ordinance 25,709’s definition
restored much of the original language defining an “emergency” as “an unforeseeable
occurrence of temporary duration causing or resulting in an abnormal increase in
traffic volume, cessation or stoppage of traffic movement, or creation of conditions
hazardous to normal traffic movement, including fire, storm, accident, riot, or
spontaneous assembly of large numbers of pedestrians in such a manner as to impede
the flow of traffic.” Id. § 32-1(22). But we need not decide what the applicable
definition is—under all three definitions, the term is not unconstitutionally vague.
43

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 44 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 44
44a

median due to an emergency. Dictionary definitions underscore the immediacy and
urgency of an emergency. And we conclude that an ordinary person would know that the
above scenarios do not require action that is sufficiently immediate and urgent to
constitute an emergency, and therefore, an exception to the Revised Ordinance. The
Revised Ordinance thus “conveys sufficiently definite warning as to the proscribed
conduct when measured by common understanding and practices.” Roth v. United
States, 354 U.S. 476, 491 (1957) (quotation omitted).
V
We REVERSE the district court’s dismissal of Wilson’s First Amendment claim
and its entry of judgment for the City on all plaintiffs’ First Amendment claims, and
REMAND for further proceedings consistent with this opinion. We AFFIRM the
court’s grant of summary judgment to the City on plaintiffs’ vagueness claim and its
entry of judgment for the City on plaintiffs’ freedom of movement claim.

44

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 45 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 45
45a

19-6008 – McCraw v. Oklahoma City
HARTZ, J., Circuit Judge, concurring
Although I cannot agree with some of the language in the majority opinion and
some of the statements in it that are unnecessary to decide this case, I do agree with the
holding.
First, I agree that as a general rule medians should be treated as public fora for
First Amendment purposes. I would be open to argument that an exception should be
made for the narrowest medians, which are clearly not designed for people to stand on or
congregate. But that issue need not be resolved now.
Second, I agree that the City has failed to show that its ordinance is narrowly
tailored to serve a significant governmental interest. The City has singularly failed to
support its ordinance with either data or expert reasoned opinion. The purported
government interest is public safety. But a number of years of relevant data failed to
support the claimed danger. I am not saying that such data are necessary to support a
claim of danger. Common sense and expert opinion may well suffice. But when there
are data available, and they contradict what common sense and expert opinion may tell
us, courts must be cautious before endorsing a governmental claim of danger.
Exercising that caution, I cannot see that the ordinance is narrowly tailored. I
would be inclined to be quite deferential to an ordinance that prohibits standing or
congregating only on narrow medians, or portions of medians, that bordered
thoroughfares with relatively high speed limits, since the proximity and exposure to the
traffic could lead to tragedy if the pedestrian on the median or a driver on the

Case 5:16-cv-00352-HE Document 190 Filed 08/31/20 Page 46 of 48
Appellate Case: 19-6008 Document: 010110399152 Date Filed: 08/31/2020 Page: 46
46a

thoroughfare is distracted or otherwise negligent. See Evans v. Sandy City, 944 F.3d 847,
860 (10th Cir. 2019) (upholding ordinance prohibiting sitting or standing on median of
less than 36 inches). Such an ordinance would appear to be narrowly tailored. But the
record in this case indicates that the medians in Oklahoma City come in a variety of sizes
and shapes. And the City has given no reasoned argument why safety requires barring
pedestrians from the entirety of all medians at all times of day if the speed limit on the
adjacent road is at least 40 mph. In particular, some of the medians covered by the
ordinance are well over 36 inches wide, so people on the median could be more than 18
inches from traffic on both sides. Yet the city’s own chief traffic engineer testified that
18 inches from a curbed roadway provides a safety zone and that city benches may be
placed as close to the curb as 18 inches.

2

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 1 of 29
47a

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA
CALVIN MCCRAW, et al.,
Plaintiffs,
vs.
CITY OF OKLAHOMA CITY, et al.,
Defendants.

)
)
)
)
)
)
)
)

NO. CIV-16-352-HE

ORDER
In this case, plaintiffs challenge an Oklahoma City ordinance which bans pedestrian
activity on certain city medians.1 The ordinance applies to medians in city streets having a
speed limit of 40 mph or higher, sometimes referred to as “arterial” streets. Plaintiffs seek
a declaration that the ordinance violates their First Amendment right to free speech and
their Fourteenth Amendment right to liberty. They seek an injunction to prevent its
enforcement.2
A non-jury trial was held on November 19 and 20, 2018. Having considered the
evidence at trial together with the other submissions of the parties, the court concludes the

1

Ordinance No. 25,777. Plaintiff’s Exhibit 21, Oklahoma City, Okla., Mun. Code ch. 32,
art. XIII, § 32-458. Page references are to the CM/ECF document and page number or to the trial
exhibit.
2

The court previously granted summary judgment on plaintiffs’ claims that the ordinance
is void for vagueness and violates their equal protection rights. Although plaintiffs allege both a
facial and an as-applied First Amendment challenge to the ordinance, their central thrust is a
facial challenge to the ordinance. See Doe v. City of Albuquerque, 667 F.3d 1111, 1122 (10th Cir.
2012); see also iMatter Utah v. Njord, 774 F.3d 1258, 1263-64 (10th Cir. 2014) (“‘A facial
challenge considers the restriction's application to all conceivable parties, while an as-applied
challenge tests the application of that restriction to the facts of a plaintiff's concrete case.’”)
(quoting Colo. Right To Life Comm. v. Coffman, 498 F.3d 1137, 1146 (10th Cir.2007)).

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 2 of 29
48a

ordinance is constitutional as against the challenges asserted here. The following findings
of fact and conclusions of law state the basis for the court’s conclusion.
Factual background
In 2015, Oklahoma City’s Municipal Code prohibited pedestrians from soliciting
while standing in the roadways unless they had a permit. See plaintiffs’ Exhibit 17. With
a permit, individuals could walk from a median or sidewalk into the road to solicit,
provided they did not impede traffic and remained there only so long as the traffic signal
prohibited vehicle movement. Id. For years Oklahoma City firefighters relied on that
exemption while engaging in their annual Fill the Boot campaign for the Muscular
Dystrophy Association. Other individuals and groups also used city medians for a variety
of purposes, including community fundraising, political campaigning, and panhandling
activities.
In December of 2015 the Oklahoma City Council passed the first of two ordinances
restricting pedestrian activity on city medians.3 The ordinance was essentially a city-wide
median ban. It prohibited pedestrians from standing, sitting, or staying on any section of a
median which was less than 30 feet in width and and located within 200 feet of an
intersection, for any purpose other than crossing the road. The revised ordinance did not
include the prior permit exemption for soliciting in the roadway, but did include limited

3

Under state law, Oklahoma municipalities are authorized to “regulate and control the
streets, road, and other public ways within the limits of the municipality.” 11 Okla. Stat. § 36101(1). They may enact “ordinances and regulations governing the operation of motor vehicles
and traffic upon the roads and streets within the municipality.” Id. at § 22-117.

2

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 3 of 29
49a

exceptions for access by public employees, emergency uses, and certain other purposes.
Plaintiffs’ Exhibit 19.
The 2015 ordinance originated in response to a number of complaints one council
member had received from citizens and businesses regarding “panhandling.” On occasion,
the mayor or others made reference to the “panhandling issue” as the matter being
addressed by the City. Plaintiffs’ Exhibits 37, p. 3; 36, pp. 6-7. In a statement to a local
paper, 4 the council member described the proposed changes to the city code as part of an
effort to combat the “‘explosive’ growth in activities that frighten and intimidate many
residents.” Plaintiffs’ Exhibit 16.
The ordinance was introduced at a September 15, 2015, city council meeting and
discussed at a public hearing held two weeks later.5 During the hearing, the municipal
counselor’s office contended the proposed ordinance should be viewed as one addressing
public safety and was “not necessarily about panhandlers.” Plaintiffs’ Exhibit 37, p. 3. An
assistant city attorney explained that anyone who was on a median, regardless of whether
they were panhandling or holding a campaign or car wash sign, was in danger. He
suggested that medians had never been meant to be places for public debate, but had

4

The exhibit was admitted without objection and, regardless, the statement does not
constitute hearsay as it is not being considered for the truth of the matter asserted.
5

The 2015 ordinance went through several drafts. The initial draft added the definition of
median and extended the City’s existing ban on solicitation of motorists by pedestrians standing
in the roadways to include pedestrians standing or walking on any median. It repealed the
exception which allowed solicitation if a permit had been obtained. Plaintiffs’ Exhibit 17. The
second draft prohibited standing, sitting or staying on any street, highway or median for any
purpose and included both a section stating the purpose of the ordinance and an exception for
people crossing the street or highway, public workers and emergencies. Plaintiffs’ Exhibit 18.

3

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 4 of 29
50a

“always been a traffic divider.” Id., p. 4. The attorney noted that panhandling per se was
not being banned by the proposed ordinance, as it would still be permissible on sidewalks
and on the side of the road, just not on the designated portions of medians. The attorney
alluded to 14 pedestrians having been killed in Oklahoma City in 1014 and to 11 at that
point in 2015, but indicated he did not know where the fatalities occurred.
At the third and final council meeting regarding the ordinance, Chief of Police Citty
made a “Traffic Safety Presentation.”6 It included statistics regarding city-wide collisions
between January 1, 2010 and September 29, 2015.

During that period there were

approximately 40,000 accidents. Approximately 16,000 of those involved injuries or
fatalities. And of those injuries or fatalities, approximately 12,000, or 76% of them,
occurred near intersections.
The police chief also showed slides/photographs of damaged medians and accidents
where vehicles ended up on or crossing the median. He did not, though, have specific
evidence pertaining to pedestrians. He stated that a number of the accidents involved
pedestrians, but he did not know the exact number which, he said, would not be “very
high.” Defendants’ Supplemental Exhibit 54, p. 10. The police chief indicated it had been
the police department’s position for many years that pedestrian activity on medians was
dangerous, noting that the median was a high-risk area for people to use due to exposure

6

At the suggestion of an assistant city manager, the police chief changed the title of his
presentation from “Panhandler Presentation” to “Traffic Safety Presentation.” Plaintiffs’
Exhibit 15.

4

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 5 of 29
51a

to traffic “going a lot of different ways.”7 Id. at p. 17. At least two city councilmen were
skeptical whether the accident statistics and safety rationale justified the ordinance, see id.
at pp. 19-20; 24, but the ordinance passed by a 7-2 vote on December 8, 2015.
In April 2016, plaintiffs filed this case challenging the ordinance, claiming that it
violated their First and Fourteenth Amendment rights. Plaintiffs are individuals and
entities who use and have used city medians for a variety of purposes. Also in April 2016,
the city council amended the City’s Aggressive Panhandling Ordinance, No. 25,359, to
expand panhandling free zones.8
In October of 2017, after the first ordinance had been in effect for almost two years,
the City considered a new median ordinance which focused on the authorized speed limit
for the adjacent roadway, rather than proximity to an intersection. An assistant city
attorney presented the proposed ordinance at a city council meeting. She indicated the City
had conducted more study and research to determine what was the highest risk factor for
pedestrians who remained on medians for longer than the time required to cross the street.9
She indicated, based on National Highway Traffic Safety Administration (“NHTSA”)

7

Police Chief Citty stated that the police department had, eight to ten years previously,
recommended a city ordinance banning people from the medians for public safety reasons because
they are designed to separate traffic. Defendants’ Supplemental Exhibit 54, p. 20.
8

The amended ordinance expanded existing panhandling-free zones and created new ones,
including a zone within 50 feet of any mass transportation stop. The amendment was apparently
intended to address safety concerns involving students, particularly elementary students, at or
near city schools. The Aggressive Panhandling Ordinance is not challenged in this lawsuit.
9

Part of the research it conducted included meeting with Master Sgt. Brian Fowler, an
Oklahoma City police officer and accident reconstructionist, regarding pedestrian safety on
medians.

5

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 6 of 29
52a

statistics, the answer was vehicles traveling at a high rate of speed. According to the
NHTSA, the fatality rate of pedestrians involved in an accident with vehicles traveling at
40 mph is 85 percent, compared to 45 percent at 30 mph and 5 percent at 20 mph. The
Centers for Disease Control and Prevention had also reported that vehicle speeds increased
both the likelihood of pedestrians being struck by a motor vehicle10 and the severity of their
injuries. The attorney stated that drivers’ reaction times decrease with speed. She also
suggested that drivers are now more distracted daily, due to texting or talking on cellular
phones. The attorney also cited other NHTSA statistics regarding the average number of
pedestrian deaths a day in traffic accidents (192) and said that Oklahoma City’s own
statistics showed an increase in the number of pedestrians killed in auto-pedestrian
accidents between 2014 and 2015.11 She indicated that the City, presumably the municipal
staff, had concluded that restrictions focused on the speed of traffic adjacent to the median
more appropriately addressed the risks to pedestrians. The revised ordinance, which is the
one now at issue in this case, was unanimously adopted by the city council on November
7, 2017.
The revised ordinance, Ord. No. 25,777, (the “Ordinance” hereafter) recited various
findings which stated the council’s purported basis for its adoption, and explicitly

10

Although the transcript reported “being struck by a motorcycle,” it is clear that is a
mistake and the correct word is motor vehicle. Defendant’s Supplemental Exhibit 578, p. 6.
11

Between 2012 and 2017 there were 504 accident auto-pedestrian reports in Oklahoma
City. Over half (293) resulted from pedestrians being struck in the roadway. See Plaintiffs’
Exhibit 31.

6

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 7 of 29
53a

recognized the constitutional issues potentially implicated by it. The Ordinance provides
as follows:
§ 32-458. - Standing, sitting, or staying on streets, highways, or certain medians.
(a) Findings. The City Council enters the following findings:
(1) Regardless of the speed limit, individuals who are sitting, standing or staying in
streets or highways open for use by motor vehicles are placing themselves in danger
of serious bodily injuries or death from motor vehicles using such streets or
highways; and
(2) National studies have shown a strong correlation between higher motor vehicle
speeds and fatal injuries to pedestrians; and
(3) The Center for Disease Control and Prevention has reported that higher motor
vehicle speeds increase both the likelihood of a pedestrian being struck by a motor
vehicle and the severity of the injury; and
(4) According to the Federal Highway Administration, a pedestrian hit by a motor
vehicle at 40 miles per hour (mph) has an 85 percent chance of fatality, compared
to 5 percent at 20 mph and 45 percent at 30 mph; and
(5) Consequently, individuals who are sitting, standing or staying on medians
located in streets or highways with a speed limit of 40 mph or greater that are open
for use by motor vehicles are placing themselves in grave danger of grievous bodily
injuries or death from motor vehicles using such streets or highways; and
(6) According to the US Department of Transportation National Highway Safety
Administration, in 2015 there were 192 pedestrians injured per day in traffic
accidents; and on average, a pedestrian was killed nearly every 1.6 hours and injured
more than every 7.5 minutes in traffic crashes in 2015; and
(7) In 2015, pedestrian deaths accounted for 15 percent of all traffic fatalities, and
90 percent of the pedestrians were killed in traffic crashes that involved single
vehicles; and
(8) 19 percent of the pedestrians killed in 2015 were struck in crashes that involved
hit-and-run drivers; and
(9) Furthermore, individuals who are sitting, standing or staying in such streets or
highways or on such medians create additional distractions for the operators of
7

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 8 of 29
54a

motor vehicles using such streets or highways; and
(10) Accordingly, the owners and/or operators of motor vehicles in such streets or
highways that are involved in collisions with any such individuals are placed at
serious and significant risk of possible criminal and/or civil litigation and/or
liability; and
(11) Based on findings (a)(1) through (a)(10) above, the City Council wishes to
enact this section to:
i.

Limit as much as possible the number of individuals sitting, standing or
staying in streets or highways that are open for use by motor vehicles; and
to further

ii.

Limit as much as possible the number of individuals sitting, standing or
staying on medians located in streets or highways with a speed limit of 40
mph or greater that are open for use by motor vehicles; and

(12) The City Council further finds that, notwithstanding the restriction imposed by
this section on the use by individuals of medians located in streets or highways with
a speed limit of 40 mph or greater, scores of medians exist throughout the limits of
the City that are located in streets or highways with a speed limit of less than 40
mph and all such medians may be available for unrestricted use by individuals.
(b) Intent. This Ordinance is not intended to impermissibly limit an individual's right to
exercise free speech. Rather it seeks to impose a regulation that is narrowly tailored to
protect pedestrians and drivers alike by imposing a specific place and manner restrictions
for certain places where substantial threats of grievous bodily injury or death exist due to
vehicular traffic traveling at high speeds.
(c) Except as permitted by Subsection (e) of this section, no individual shall stand, sit, or
stay for any purpose in any portion of a street or highway open for use by vehicular traffic.
(d) Except as permitted by Subsection (e) of this section, no individual shall stand, sit, or
stay for any purpose on any portion of a median located within a street or highway open
for use by vehicular traffic if the posted speed limit for such street or highway is 40 mph
or greater; provided, if no speed limit is posted for such street or highway, then for the
purpose of applying the restrictions imposed by this subsection, the speed limit of such
street or highway shall be presumed to be 25 miles per hour.
(e) Subsections (c) and (d) of this section shall not apply to:
(1) Individuals using a crosswalk or safety zone to cross from one side of the street
8

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 9 of 29

or highway to another;

55a

(2) Government law enforcement officers, other government employees, or
government contractors or their employees or subcontractors who are present in the
street or highway or on the median for the purpose of acting within the scope of
governmental authority;
(3) Individuals conducting legally authorized construction or maintenance work, or
other legally authorized work, in or on the street, highway, or median; or
(4) Individuals responding to any emergency situation.
(f) Any person who violates the provisions of this section shall, upon conviction, be
punished by a fine not to exceed $100.00. No court costs shall be assessed.
Oklahoma City, Okla., Mun. Code ch. 32, art. XIII, § 32-458.
The Ordinance essentially prohibits anyone from using a city median for any
purpose other than to cross the street, if the adjacent street speed limit is 40 mph or higher.
It affects approximately 400 medians in the City. The City asserts that least 103 medians
located in roadways at intersections controlled by traffic lights or stop signs remain
available for use under the Ordinance. However, the number available to users is actually
less than that because some of those medians, 27 according to plaintiffs, fall within the
scope of the Aggressive Panhandling Ordinance referenced above.12
Plaintiffs contend the Ordinance, like the 2015 ordinance, is unconstitutional
because it unlawfully restricts protected speech and activities in traditional public fora,
contrary to the First Amendment.

They also contend it violates their Fourteenth

Amendment Due Process rights by restricting their liberty interests. Defendants dispute

12

The total number of medians in Oklahoma City was not specified by the parties, although
the City introduced a map which identified all the medians. Defendants’ Exhibit 21.

9

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 10 of 29
56a

whether street medians should be considered traditional public fora and contend that, even
if they are, the restrictions involved in the Ordinance pass constitutional muster.
Discussion / Conclusions of Law
The First Amendment guarantees the right to free expression and is applicable to
the states through the Due Process Clause of the Fourteenth Amendment.” iMatter Utah
v. Njord, 774 F.3d 1258, 1263 (10th Cir. 2014); Cutting v. City of Portland, 802 F.3d 79,
81 (1st Cir. 2015). “Although ‘[t]he First Amendment literally forbids the abridgment only
of “speech,’” courts have “‘long recognized that its protection does not end at the spoken
or written word. . . . [C]onduct may be sufficiently imbued with elements of
communication to fall within the scope of the First ... Amendment[ ].’” Satawa v. Macomb
Cty. Rd. Comm'n, 689 F.3d 506, 517 n.11 (6th Cir. 2012) (quoting Texas v. Johnson, 491
U.S. 397, 404 (1989)). “Expression, whether oral or written or symbolized by conduct, is
subject to reasonable time, place, or manner restrictions.” Clark v. Cmty. for Creative NonViolence, 468 U.S. 288, 293 (1984).
To prevail on their First Amendment claim, plaintiffs initially must “establish that
their activities are protected by the First Amendment.” Verlo v. Martinez, 820 F.3d 1113,
1128 (10th Cir. 2016). The court then “identif[ies] whether the challenged restrictions
impact a public or nonpublic forum, because that determination dictates the extent to which
the government can restrict First Amendment activities within the forum.” Id. Finally, the
court decides “whether the proffered justifications for prohibiting speech in the forum
satisfy the requisite standard of review.” Id.

10

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 11 of 29
57a

The Ordinance affects medians on streets where the speed limit is 40 mph or above.
The majority of streets in Oklahoma City (983 out of 1029) with that speed limit are
classified as major or minor arterial streets. Major or minor arterial streets are “traffic
moving streets,” or streets which typically involve higher volumes of traffic. Medians
primarily are designed to serve as traffic control devices on these streets, to separate
opposing lanes of traffic. They also allow pedestrians to cross the road safely. However,
some medians in Oklahoma City have historically been used for other purposes by
plaintiffs and others. Political candidates or their supporters gather in the medians on
election day, waiving signs and urging drivers to vote for their candidate. Political signs,
although illegal on public property in Oklahoma City,13 have also been placed on the
medians. Certain of the plaintiffs have panhandled from city medians or have used them
to sell/distribute The Curbside Chronicle, a monthly magazine or “street paper” which
provides employment opportunities for people experiencing homelessness. One plaintiff
is a social and political activist who has used medians for political purposes, including
political rallies and protests. Members of the Oklahoma Libertarian Party have used the
medians for soliciting signatures seeking ballot access. And the news media sometimes
conduct interviews on medians, or otherwise cover stories from that location.
Most of the activities plaintiffs have engaged in, such as political campaigning or
canvassing for voter signatures, are plainly the type of conduct protected by the First
Amendment. See e.g., McCullen v. Coakley, 134 S.Ct. 2518, 2536 (2014) (‘“[n]o form of

13

See Oklahoma City, Okla., Mun. Code ch. 3, art. V, §§ 3-103; 3-82(36).

11

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 12 of 29
58a

speech is entitled to greater constitutional protection” than “‘[h]anding out leaflets in the
advocacy of a politically controversial viewpoint’”) (quoting McIntyre v. Ohio Elections
Comm’n, 514 U.S. 334, 347 (1995)). Similarly, “panhandling and solicitation of charitable
contributions are protected speech.” Reynolds v. Middleton, 779 F.3d 222, 225 (4th Cir.
2015); see Cutting, 802 F.3d at 81.14 The court therefore concludes plaintiffs have shown
they were engaged in expression protected by the First Amendment when they were sitting,
standing or staying on city medians, and defendants do not contend otherwise.
“By prohibiting [persons] from accessing the City’s [medians], the City has
precluded plaintiffs from exercising their First Amendment rights “in a particular
government forum.” Doe v. City of Albuquerque, 667 F.3d 1111, 1128 (10th Cir. 2012).
“To determine when and to what extent the Government may properly limit expressive
activity on its property, the Supreme Court has adopted a range of constitutional protections
that varies depending on the nature of the government property, or forum.” Verlo, 820
F.3d at 1129; First Unitarian Church of Salt Lake City v. Salt Lake City Corp., 308 F.3d
1114, 1124 (10th Cir. 2002) (nature of relevant forum determines “[t]he extent to which
government may control expressive activities”). The Supreme Court has identified three
categories of government property: “(1) traditional public fora (‘streets and parks which

14

The court has considerable doubt whether plaintiff Wilson’s participation in the
Memorial Marathon constitutes expressive conduct for Free Speech purposes. Similarly, it is
doubtful whether plaintiff Faulk’s efforts to retrieve his cat from the median would qualify as
expressive activity, no matter how expressive the cat may have been. But plaintiff Faulk, like the
plaintiffs generally, has otherwise engaged in sufficient expressive conduct to give him standing
to challenge the Ordinance.

12

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 13 of 29
59a

have immemorially been held in trust for the use of the public and, time out of mind, have
been used for purposes of assembly, communicating thoughts between citizens, and
discussing public questions’); (2) designated public fora (‘public property which the State
has opened for use by the public as a place for expressive activity’); [] (3) nonpublic fora
(‘[p]ublic property which is not by tradition or designation a forum for public
communication’).” Doe, 667 F.3d at 1128 (quoting Perry Educ. Ass'n v. Perry Local
Educators' Ass'n, 460 U.S. 37, 45-46 (1983)).15
“[T]raditional public fora are areas that have historically been open to the public for
speech activities.” McCullen, 134 S.Ct. at 2529. Property is a public forum “[i]f the
objective, physical characteristics of the property at issue and the actual public access and
uses that have been permitted by the government indicate that expressive activity would be
appropriate and compatible with those uses.” First Unitarian Church, 308 F.3d at 1125
(quoting Int’l Soc’y for Krishna Consciousness v. Lee, 505 U.S. 672, 698-99 (1992)
(Kennedy, J., concurring in judgment)).
Although the cases have generally treated medians as traditional public fora, that
conclusion is neither obvious nor, for at least some medians, true at all. Medians come in
different shapes and sizes. A median may be twenty or more feet wide, with grassy open
areas, or it may be a two-foot-wide strip of concrete. While the City has allowed the public
to access and use medians for expressive activities in some circumstances, the “objective,

15

The court noted in City of Albuquerque that the Supreme Court has “since identified a
separate category -- the ‘limited public forum’ – although the Court’s use of this term has been
inconsistent.” City of Albuquerque, 667 F.3d at 1128.

13

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 14 of 29
60a

physical characteristics of the property” are sometimes incompatible with those uses. The
medians at issue here are located in the middle of busy roadways. Their primary purpose
is traffic control.
Though some medians can be significant in size, most are considerably less
accessible than the streets, sidewalks and parks ordinarily viewed as “traditional public
fora.” 16 Id. Cases referring to streets as “quintessential public forums” originate from an
earlier time when “streets” were less busy and dangerous to pedestrians than the arterial
streets in high traffic areas where the medians at issue here are located.
An exceptional type of “median” addressed by the parties involves the very wide
medians located north and south of the State Capitol, on Lincoln Boulevard. Those have
been used for protest marches and other political gatherings, and have sidewalks placed on
some of them, along with benches, signs and other improvements consistent with
pedestrian use. However, the court concludes the medians on Lincoln Boulevard (also
known as State Highway 0) are not impacted by the ordinance, as they fall within the direct
control of the State of Oklahoma, rather than the City. See 73 Okla. Stat. §§ 83; 83.1.17
Despite the distinctions between medians and property considered “classic
traditional public fora,” Cutting, 802 F.3d at 83, most courts have concluded that public

16

And as the Tenth Circuit noted in Verlo, “[t]he Supreme Court has also cautioned,
however, that not all streets and sidewalks are traditional public fora.” Verlo, 820 F.3d at 1138.
17

Certain of the other medians referenced by plaintiffs as being similar to a park, such as
McMechan Parkway, are not affected by the ordinance because they are also within the “CapitolMedical Center Improvement and Zoning District” or are adjacent to streets with speed limits
below 40 mph.

14

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 15 of 29
61a

medians are “traditional public fora.” Reynolds, 779 F.3d at 225; see e.g., Warren v. Fairfax
Cnty., 196 F.3d 186, 194-98 (4th Cir.1999) (en banc); Satawa, 689 F.3d at 520–22. A
critical factor in determining the existence of a public forum is “‘whether, by long tradition
the property has been devoted . . . to assembly and debate.’” First Unitarian Church, 308
F.3d at 1124 (quoting Ark. Educ. Television Comm’n v. Forbes, 523 U.S. 666, 677 (1998));
see McCullen, 134 S.Ct. at 2529 (“In short, traditional public fora are areas that have been
historically been open to the public for speech activities.”). Here, in light of the undisputed
evidence that at least some of the medians at issue have been used for expressive purposes
and in light of the City’s acquiescence in those uses, the court concludes that a substantial
number of the medians subject to the Ordinance qualify as traditional public fora.18
“[T]he government’s ability to restrict speech in [a traditional public forum] is ‘very
limited,’” id. (quoting United States v. Grace, 461 U.S. 171, 177 (1983)), as “the guiding
First Amendment principle that the ‘government has no power to restrict expression
because of its message, its ideas, its subject matter, or its content’ applies with full force.”
Id. (quoting Police Dept of Chicago v. Mosley, 408 U.S. 92, 95 (1972)). In such forums
the government generally “may not ‘selectively . . . shield the public from some kinds of
speech on the ground that they are more offensive than others.’” Id. (quoting Erzonznik.
v. Jacksonville, 422 U.S. 205, 209 (1975)). Courts have, though, “afforded the government
somewhat wider leeway to regulate features of speech unrelated to its content.” Id.

18

In light of the court’s conclusions as to the propriety of the restrictions employed by the
City, discussed below, it is unnecessary to identify which particular medians would or would not
qualify as traditional public fora. See generally Frisby v. Schultz, 487 U.S. 474, 480-81 (1988).

15

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 16 of 29
62a

“‘[E]ven in a public forum the government may impose reasonable restrictions on the time,
place, or manner of protected speech, provided the restrictions are justified without
reference to the content of the regulated speech, that they are narrowly tailored to serve a
significant governmental interest, and that they leave open ample alternative channels for
communication of the information.’” Id. (quoting Ward v. Rock Against Racism, 491 U.S.
781, 791 (1989)). If the restrictions on speech are content-based, they “‘must satisfy strict
scrutiny, that is, the restriction[s] must be narrowly tailored to serve a compelling
government interest.’” Verlo, 820 F.3d at 1134 (quoting Pleasant Grove City v. Summum,
555 U.S. 460, 469 (2009)).
Here, the court concludes the Ordinance is content neutral. A law is content based,
i.e. not content neutral, if it “applies to particular speech because of the topic discussed or
the idea or message expressed.” Reed v. Town of Gilbert, 135 S.Ct. 2218, 2227 (2015).
The Ordinance at issue here does not discriminate in that fashion. Rather, it bans sitting or
standing in the affected medians by everyone, regardless of the type of “speech” involved.
Enforcement authorities do not have to “‘examine the content of the message that is
conveyed to determine whether’ a violation has occurred.” McCullen, 134 S.Ct. at 2518.
So, on its face, the Ordinance is content neutral. See Cutting, 802 F.3d at 86 (ordinance
prohibiting standing, sitting or staying on city medians, which “restrict[ed] speech only on
the basis of where such speech takes place” is content-neutral).
Plaintiff’s contend that, notwithstanding the Ordinance’s facial neutrality, it is
nonetheless content based based on the motivation of the city council. They argue the
legislative history shows the true purpose to be suppression of panhandling. They also
16

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 17 of 29
63a

contend the City revised the initial ordinance “in response to litigation rather than genuine
traffic safety concerns.” Doc. #131, p. 34.19 Plaintiffs thus ask the court to ignore the
explicit rationale and statement of legislative intent included in the ordinance, and to
conclude the real reason was something different.
The court declines to do so. As a threshold matter, it is at least open to question
whether, in a First Amendment Free Speech case, the court should even attempt inquiry
into the “real” legislative intent. There is long standing precedent that legislation is
generally presumed to be valid and, if otherwise constitutional, will not be struck down
“on the basis of an alleged illicit legislative motive.” United States v. O’Brien, 391 U.S.
367, 383 (1968); see Adams Outdoor Advert. Ltd. P'ship v. City of Madison, 2018 WL
3242282, at *3 (W.D. Wis. July 3, 2018) (“The Supreme Court and the Court of Appeals
for the Seventh Circuit have repeatedly explained that legislators' personal motivations for
enacting a regulation are irrelevant to First Amendment challenges to government
regulations; only the government’s asserted justifications are pertinent.”).
“[T]he Supreme Court has considered legislative motive or purpose in assessing
whether a statute is valid under the Establishment Clause and the Equal Protection Clause.”
Planned Parenthood of Kan. and Mid-Mo. v. Moser, 747 F.3d 814, 841 (10th Cir. 2014),
19

Plaintiffs make the additional argument that the Ordinance is content-based in
application as it allows private businesses and other organizations to landscape and maintain the
medians and erect signs advertising their sponsorship. They do not, though, cite any authority
that suggests that conclusion under similar facts. The court is not persuaded that the limited
exceptions for law enforcement personnel or persons maintaining the median are sufficient to
demonstrate selective enforcement of the ordinance. The workers are not engaging in protected
expression when installing or maintaining the landscaping.

17

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 18 of 29
64a

abrogated on other grounds, Armstrong v. Exceptional Child Center, Inc., 135 S.Ct. 1278
(2015); see Masterpiece Cakeshop Ltd. v. Colorado Civil Rights Comm’n, 138 S.Ct. 1719,
1730 (2018) (“Members of the Court have disagreed on the question whether statements
made by lawmakers may properly be taken into account in determining whether a law
intentionally discriminates on the basis of religion.”).

And it has suggested that a

government-imposed restriction might violate the First Amendment if it was
“impermissibly motivated by a desire to suppress a particular point of view.” Cornelius v.
NAACP Legal Def. & Educ. Fund, Inc., 473 U.S. 788, 812-13 (1985). But, as the Tenth
Circuit pointed out in Moser, the Court has not “invalidated a statute containing no explicit
restriction on speech (or expressive conduct) or association on the ground that the ‘motive’
of the legislature was to penalize a person for the person’s speech or association.” Moser,
747 F.3d at 842. See City of Erie v. Pap's A.M., 529 U.S. 277, 292 (2000) (“As we have
said before, however, this Court will not strike down an otherwise constitutional statute on
the basis of an alleged illicit motive.”); see generally NAACP v. City of Philadelphia, 834
F.3d 435, 449 n.7 (3rd Cir. 2016) (“some courts appear to say that motive is not enough
and that there must be evidence that the restriction is being implemented in a discriminatory
way”). In O’Brien the Supreme Court explained why courts are reluctant to inquire into
legislators’ reasons for their actions: “What motivates one legislator to make a speech about
a statute is not necessarily what motivates scores of others to enact it . . .” O’Brien, 391
U.S. at 384. And what motivates some or all at one point is not necessarily what motivates
them later.

18

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 19 of 29
65a

Further, even if the court was inclined to inquire into the “true” legislative motive,
the court would conclude plaintiffs have not established the necessary “illicit” motive as a
matter of fact. It is true that concerns with panhandling triggered the initial discussions
and actions by at least some members of the city council. There is also evidence suggesting
that the City’s attorneys recognized the potential constitutional questions involved and
encouraged evaluating the matter as a public safety issue rather than a panhandling
concern. However, the evidence also suggests that concerns with traffic safety emerged
relatively early in the process as a consideration for at least some members of the council.
For example, in September 2015, one council member stated: “it’s becoming a public
safety issue, and somebody’s going to get hurt if we don’t do something about it soon.”
Plaintiffs’ Exhibit 36, p. 18.20 Another said at the Dec. 8, 2015, city council meeting: “I
think it certainly improves safety by getting them off the median at least onto the side of
the road . . . especially in certain areas where the speed limit is 40, 45 miles an hour . . .”).
Defendants’ Supplemental Exhibit 54, p. 114. The evolution of the various ordinances and
drafts, and the comments at the various council meetings and public hearings held, reflect
an increasing focus on traffic safety as the council’s deliberations continued regarding the
issue after the passage of the initial ordinance. The fact that the ordinance limited its
restrictions to medians also cuts against a conclusion that the city council’s real intent was

20

The court recognizes that the same councilman was aware of the possibility of litigation,
see plaintiffs’ Exhibit 14, but he remained consistent in his position that medians were dangerous
and that the City’s intent was to protect public safety. See defendants’ Supplemental Exhibit 54,
pp. 53-54 (Dec. 8, 2015 city council meeting transcript). And, as noted, he was not the only
member to voice that concern. See id., p. 114.

19

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 20 of 29
66a

to ban panhandling. If that was the objective, the ban would likely have been extended to
sidewalks adjacent to the streets where it also occurs. In addition, there has been no
evidence of selective enforcement.

And, finally, unlike its predecessor, the Ordinance

passed unanimously.
As noted above, it is uncertain whether legislators’ personal motivations for
enacting an ordinance are even pertinent in evaluating a Free Speech challenge. See Moser,
747 F.3d at 842 (“[W]e would be most reluctant to expand the statutory-motive cases to
the arena of freedom of speech and association.”). But even assuming they are, the court
concludes there is no persuasive basis here for concluding the council’s motivation was
other than what it recited in the Ordinance itself. There is nothing improper, or even
suspect, about a legislative body considering multiple courses of action for a variety of
reasons. There is nothing wrong with being mindful of constitutional concerns as it elects
among options; indeed, doing otherwise might be more problematic. There is nothing
inherently suspicious about a legislative body’s approach to a problem changing with
experience and as the issue is considered more fully, particularly where the legislative
approach and conduct plays out over a course of several years. In any event, the court
concludes there is no basis here for concluding that the Ordinance is anything other than
content neutral.
Because the ordinance is content neutral, the court applies an intermediate scrutiny
analysis. To survive a constitutional challenge the ordinance must be narrowly tailored to
serve a significant governmental interest and leave open ample alternative channels of
communication. McCullen v. Coakley, 134 S. Ct. at 2529; see Njord, 774 F.3d at 1267 (test
20

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 21 of 29
67a

applied to determining constitutionality of state regulations authorizing parade permits on
state highways). “The City has the burden of proof in this inquiry.” Doe, 667 F.3d at
1131; Reynolds, 779 F.3d at 226, citing McCullen, 134 S.Ct. at 2540.
Promoting public safety in the traffic context is a legitimate, important interest. See
McCullen, 134 S.Ct. at 2435 (recognizing “the legitimacy of the government’s interests in
ensuring public safety and order [and] promoting the free flow of traffic on streets”)
(internal quotation marks omitted); Cutting, 802 F.3d at 86; iMatter Utah, 774 F.3d at 1266;
Reynolds, 779 F.3d at 228 (noting government generally was not required “to present
evidence to show the existence of a significant governmental interest; common sense and
the holdings of prior cases have been found sufficient to establish, for example, that the
government has a significant interest in public safety.”).

Plaintiffs do not dispute that

public safety is a legitimate, significant government interest. What they essentially argue
is that the council was not really worried about the public safety consideration, the
argument dealt with above, and the further contention that the ordinance does not really
serve to protect pedestrians or others.
Part of plaintiff’s argument as to the latter factor is based on the assertion that the
City lacked empirical research as the basis for its public safety concerns and, ultimately,
adoption of the Ordinance. The argument is unpersuasive. It does not take expert
testimony or empirical evidence to support a conclusion that traffic is more dangerous at
high speeds than at low speeds. Nor does it take such evidence to conclude that the risk to
pedestrians is greater if traffic is speeding past them on two sides rather than one.
Notwithstanding that, the council did have available to it (and apparently relied on) various
21

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 22 of 29
68a

accident statistics showing the shifting risks to pedestrians based on vehicle speed. It had
the longstanding opinion of its police chief as to the dangers of pedestrian activity on center
medians. See defendants’ supplemental Exhibit 54, pp. 16, 17. Even one of the plaintiffs
testified he had seen someone drive a vehicle onto a median due to a distracted driver. Doc.
#158-7, p. 6. While the City did not cite any vehicle accidents involving a pedestrian on a
median, “[t]he fact that a pedestrian ha[s] not yet been hit . . . [does] not mean that it [is]
not dangerous, for a ‘government need not wait for accidents to justify safety regulations.’”
Traditionalist Am. Knights of the Ku Klux Klan v. City of Desloge, 775 F.3d 969, 975 (8th
Cir. 2014) (quoting Assoc. of Comm. Orgs. for Reform Now v. St. Louis Cnty., 930 F.2d
591, 595 (8th Cir.1991)).
Here there was evidence of increasing pedestrian activity on medians located at
intersections, coupled with a description by the city police chief of “potential dangers
associated with that activity.”

Reynolds, 779 F.3d at 229. Similar evidence, when

“considered along with a healthy dose of common sense” has been found sufficient to show
that an ordinance banning solicitation on medians furthered the county’s safety interests.
Reynolds, 779 F.3d at 229-30. The court in Reynolds did not require proof of injuries or
accidents involving roadway solicitors because the county had established that roadway
solicitation was dangerous and, once it accepted that, it was apparent that the ordinance
furthered the county’s safety interests. This court agrees with the Fourth Circuit that
“common sense and logic” support the conclusion that removing pedestrians from medians
located next to high-speed streets “reduces the number of people engaging in a dangerous

22

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 23 of 29
69a

activity and thus furthers the [City’s] safety interest in a direct and material way.” Id. at
230.
The protection of pedestrians was not the only objective sought to be advanced by
the City. The Ordinance was also directed to activities on the median distracting drivers
and leading to vehicle accidents. Ordinance, subsections (a) (9) and (10). Much of
plaintiffs’ evidence was to the effect that they wanted to conduct their political or other
activities on the median precisely because they could better get the attention of drivers from
that vantage point. While that is no doubt true and makes their preference for the median
understandable, it also proves the point that --- if the concern is avoiding distractions to
drivers --- median activity is very distracting. Again, it does not take expert analysis to
reach the conclusion that drivers facing lots of distractions, whether from people on the
median seeking their attention or otherwise, are more apt to be involved in traffic accidents.
To satisfy the requirement of narrow tailoring, the ordinance must promote “‘a
substantial government interest that would be achieved less effectively absent the
regulation, and . . . not burden substantially more speech than is necessary to further the
government's legitimate interests.”’ Verlo, 820 F.3d at 1134 (quoting Wells v. City &
Cnty. of Denver, 257 F.3d 1132, 1148 (10th Cir. 2001)). The time, place or manner
restriction does not have to “‘be the least restrictive or least intrusive means’” of advancing
its legitimate goals. iMatter Utah, 774 F.3d at 1266 (quoting Ward, 491 U.S. at 798-99).
As explained by the Tenth Circuit in iMatter Utah, restrictions on protected speech “‘are
not invalid simply because there is some imaginable alternative that might be less
burdensome on speech.’” Id. (quoting Ward, 491 U.S. at 798). All that is required is that
23

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 24 of 29
70a

the restriction on speech be reasonably targeted, not perfectly targeted, “‘to address the
harm intended to be regulated.’” Id. (quoting 44 Liquormart, Inc. v. Rhode Island, 571
U.S. 484 (1996)). Here, the court concludes the Ordinance, with its focus on higher speed
arterial streets, is reasonably focused on the pedestrian and traffic safety objectives
identified by the City.
Plaintiffs also contend defendants have failed to “demonstrate that alternative
measures that burden substantially less speech would fail to achieve the [City’s] interests.”
McCullen, 134 S.Ct. at 2540. In their proposed findings and conclusions plaintiffs suggest
multiple alternatives, ranging from outlawing jaywalking and bicycling on all roadways or
roadways of 40 mph or higher, to banning pedestrians on narrow medians, requiring them
to stay 18 inches from the curb, or requiring pedestrians on medians to wear bright or
reflective clothing.
What is required to demonstrate narrow tailoring is somewhat unclear after the
Supreme Court’s decision in McCullen. Compare Traditionalist Am. Knights of the Ku
Klux Klan, 775 F.3d at 978 (“It is far from clear that the Court was intending in the
McCullen abortion case to change the law on narrow tailoring. While quoting its
longstanding precedent in Ward to define narrow tailoring at no point did the Supreme
Court announce a new rule.”) with Reynolds, 779 F.3d at 231 (“As the Court explained in
McCullen, however, the burden of proving narrow tailoring requires the County to prove
that it actually tried other methods to address the problem.”). In Verlo the Tenth Circuit
noted that the Supreme Court “ha[d] not discouraged courts from considering alternative
approaches to achieving the government’s goals when determining whether a content24

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 25 of 29
71a

neutral regulation is narrowly tailored . . . .” Verlo, 820 F.3d at 1135. The court recognized
that in McCullen the “Court itself [had] examined possible alternative approaches to
achieving the government’s objective to determine whether the government’s chosen
approach burdens substantially more speech than necessary.” Id. As a result, the Tenth
Circuit stated it could not conclude that “the district court applied the wrong legal standard
merely because it considered whether the Judicial District had options other than the
complete ban on speech . . . that would equally serve its interests.” Id. However, unlike
the court in Reynolds, the Tenth Circuit did not hold that the city or county must present
evidence showing that it “ever tried to use the available alternatives to address its safety
concerns.” Reynolds, 779 F.3d at 232.
Here, the court concludes the Ordinance was narrowly tailored with the meaning of
the above precedents. The Ordinance’s restrictions apply only to center medians, not to
street corners, sidewalks or other surrounding areas. Further, they apply only to medians
in streets where the speed limit is at least 40 mph. The City thus narrowed the ban to
address those situations where the pedestrian is most exposed and at risk --- where
pedestrians are exposed to the risk of traffic on multiple sides and where the speed of that
traffic is relatively high. While the government “may not ‘forgo[] options that could serve
its interest just as well,’” the court is not persuaded that the City “has available to it a
variety of approaches that appear capable of serving its interests . . . .” in pedestrian safety.
McCullen, 134 S.Ct. at 2539. Nor will those alternatives decrease in some more effective
fashion the distractions to drivers which cause traffic accidents, another public safety goal
of the ordinance.
25

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 26 of 29
72a

The cases plaintiffs cite to demonstrate that the Ordinance is not narrowly tailored
are distinguishable and involve prohibitions more expansive than those involved here. The
ordinance in Cutting banned standing, sitting, staying, driving, or parking on all median
strips in the city of Portland, Maine, Cutting, 802 F.3d at 79 (ordinance “indiscriminately
bans virtually all expressive activity in all of the City’s median strips”). The ordinance in
Reynolds prohibited soliciting from all medians in Henrico County, Virginia. Reynolds,
779 F.3d at 231 (amended ordinance “applied to all County roads, regardless of location or
traffic volume, and includes all medians . . .”). The solicitation ban in Comite de Jornaleros
de Redondo Beach v. City of Redondo Beach, 657 F.3d 936 (9th Cir.2011) (en banc)
“applie[d] citywide to all streets and sidewalks in the City.” Id. at 949. Similarly, the
statute challenged in McCullen “create[ed] 35-foot buffer zones at every [abortion] clinic
across the Commonwealth.” McCullen, 134 S.Ct. at 2539. In contrast to those situations,
Oklahoma City has not banned pedestrians from all medians. See Doe, 667 F.3d at 1136
(Like the Supreme Court, we ‘generally will not strike down a government action’ for
failure to leave open adequate alternative channels of communication ‘unless the
government enactment will foreclose an entire medium of public expression across the
landscape of a particular community or setting.’”) (quoting Citizens for Peace in Space v.
City of Colorado Springs, 477 F.3d 1212,1225 (10th Cir. 2007)). It also has not enacted an
ordinance that is “wildly underinclusive,” as plaintiffs argue. The court is not persuaded
that cyclists, pedestrians on the sides of the road, jaywalkers, stationary signs or workers
periodically maintaining landscaping present the same type of problem as pedestrians

26

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 27 of 29
73a

located on medians in busy streets. The ordinance also is not “riddled with exceptions.”
Williams-Yulee v. Florida Bar, 135 S.Ct. 1656, 1669 (2015).
Finally, the ordinance satisfies the remaining requirement that it leaves open ample
alternatives for communications. As one plaintiff acknowledged, plaintiffs are not
proscribed from sitting, standing or staying at the same intersections they did before. They
just cannot stand in the medians, in the middle of the road, at some locations. See Doc.
#158-11, p. 5. They can move to the side of the road or to the corners of intersections
where they have more exposure. Admittedly some of medians at the “high visibility, high
volume intersections,” are now off limits, but that does not necessarily render the restriction
improper. See Reynolds, 779 F.3d at 232 n.5 (“The ‘available alternatives need not be the
speaker’s first or best choice or provide the same audience or impact for the speech.”’)
(internal quotation marks omitted). But at least 80 medians in the City, not including those
in the Capitol-Medical Center Improvement and Zoning District, are not affected by the
ordinance.21 See generally iMatter, 774 F.3d at 1265 (stating in context of an as-applicd
challenge “[i]t is true, as the district court noted, that the Plaintiffs’ indigence denied them
the ability to present their message as effectively as they might have had they had access
to State Street itself (rather than adjacent sidewalks), but it did not deny them the ability to
disseminate their message.”). The director of the Curbside Chronicle acknowledged that
the magazine has found new sales spots for their vendors notwithstanding the Ordinance.
And, as noted above, the medians south of the State Capitol, which plaintiffs asserts are

21

See generally Plaintiffs’ Exhibit 42.

27

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 28 of 29
74a

irreplaceable for their rallies and protests, are not governed by the Ordinance absent more
than has been shown here.22 The plaintiff representative of the Libertarian Party testified
that, even under the 2015 ordinance, the Party was able to obtain the signatures needed
during its petition drive for ballot access. The court concludes the Ordinance leaves open
ample alternative channels through which plaintiffs may communicate their protected
speech.
Having determined that the Ordinance is narrowly tailored to serve a significant
governmental interest and leaves open sufficient channels of communications, the court
concludes the Ordinance is constitutional as against plaintiffs’ First Amendment challenge.
Plaintiffs’ remaining claim is that the ordinance deprives them of liberty protected
by the Due Process Clause of the Fourteenth Amendment. They rely on City of Chicago
v. Morales, 527 U.S. 41, 53 & 54 n.19 (1999). A plurality of the Supreme Court stated in
that case that “[F]reedom to loiter for innocent purposes is part of the ‘liberty’ protected
by the Due Process Clause of the Fourteenth Amendment.” Id. at 53. However, defendants
argue, and plaintiffs do not seriously dispute, that the right to loiter is not a fundamental
liberty interest. As a result, plaintiffs’ challenge triggers rational basis review. See Doe v.
City of Lafayette, 377 F.3d 757, 772-73 (7th Cir. 2004). To be constitutional, the ordinance
“‘need only be rationally related to a legitimate government purpose.’” Powers v. Harris,

22

Because this case is fundamentally a facial challenge, the court should not rely on the
plaintiffs’ “individual circumstances in evaluating whether there were adequate alternative
channels of communication.” Doe, 667 F.3d at 1135 n.17. However, the plaintiffs are
representative of those “whose access to speech is restricted by this regulation.” And to the extent
plaintiffs are pursuing an-applied claim, the court’s conclusions support the denial such a claim.

28

Case 5:16-cv-00352-HE Document 180 Filed 12/19/18 Page 29 of 29
75a

379 F.3d 1208, 1215 (10th Cir. 2004) (quoting Save Palisade FruitLands v. Todd, 279 F.3d
1204, 1210 (10th Cir.2002)). For the reasons stated previously, the court concludes that
public safety is a legitimate governmental interest and that the median ban is rationally
related to that end. Therefore, the court rejects plaintiffs’ challenge to the Ordinance based
on the Fourteenth Amendment.
Accordingly, the court concludes Ordinance No. 25,777 is constitutional as against
the challenges to it advanced here. Judgment will be entered in favor of defendants and
against plaintiffs.
IT IS SO ORDERED.
Dated this 19th day of December, 2018.

29

Case 5:16-cv-00352-HE Document 181 Filed 12/19/18 Page 1 of 1
76a

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
CALVIN MCCRAW, et al.
Plaintiffs,
CITY OF OKLAHOMA CITY, an
Oklahoma municipal corporation, et al.
Defendants.

)
)
)
)
)
)
)
)

Case No. CIV-16-0352-HE

JUDGMENT
In accordance with the order entered this date, and the order entered June 18, 2018,
granting partial summary judgment, judgment is entered in favor of defendants and against
plaintiffs on all claims.
IT IS SO ORDERED.
Dated this 19th day of December, 2018.

Defendants'
Exhibit

2
CIV-16-352-HE

exhibitsticker.com

77a

78a

79a

80a

81a

82a

83a

Defendants'
Exhibit

1
CIV-16-352-HE

exhibitsticker.com

84a

85a
( 1) Help to protect persons from the traffic hazards and potential
personal injuries that they are or may be exposed to by engaging in
any activity on those portions of the public streets or highways that
are open, improved, and in actual use by vehicular travel, and on
certain portions of the medians abutting such public streets or
highways; and
(2) Help to protect drivers of vehicles from potential legal liability from
injuring persons engaged in any such activities on any such public
streets, highways, or medians, or from potential legal liability or
injury from traffic accidents potentially resulting from the
distractions created by persons engaging in any such activities on any
such streets, highways, or medians.
{ill

Findings. The City Council enters the following findings:

ill Regardless of the speed limit, individuals who are sitting, standing or
staying in streets or highways open for use by motor vehicles are
placing themselves in danger of serious bodily injuries or death from
motor vehicles using such streets or highways; and

ill National studies have shown a strong correlation between higher
motor vehicle speeds and fatal injuries to pedestrians; and

ill The Center for Disease Control and Prevention has reported that
higher motor vehicle speeds increase both the likelihood of a
pedestrian being struck by a motor vehicle and the severity of the
injury; and

ill According to the Federal Highway Administration, a pedestrian hit
by a motor vehicle at 40 miles per hour (mph) has an 85% chance of
fatality, compared to 5% at 20 mph and 45% percent at 30 mph; and

ill Consequently, individuals who are sitting, standing or staying on
medians located in streets or highways with a speed limit of 40 mph
or greater that are open for use by motor vehicles are placing
themselves in grave danger of grievous bodily injuries or death from
motor vehicles using such streets or highways; and

®

According to the US Department of Transportation National
Highway Safety Administration, in 2015 there were 192 pedestrians
injured per day in traffic accidents; and on average, a pedestrian was
killed nearly every 1.6 hours and injured more than every 7.5
minutes in traffic crashes in 2015; and

86a

ill

In 2015, pedestrian deaths accounted for 15 percent of all traffic
fatalities, and 90 percent of the pedestrians were killed in traffic
crashes that involved single vehicles; and

.([)_

19% of the pedestrians killed in 2015 were struck in crashes that
involved hit-and-run drivers; and

.(2l

Furthermore, individuals who are sitting, standing or staving in
such streets or highways or on such medians create additional
distractions for the operators of motor vehicles using such streets or
highways; and

.Q.Ql Accordingly, the owners and/or operators of motor vehicles in such
streets or highways that are involved in collisions with any such
individuals are placed at serious and significant risk of possible
criminal and/or civil litigation and/or liability; and
.Ql} Based on findings (a)(l) through (a)(lO) above, the City Council
wishes to enact this section to :
1.

Limit as much as possible the number of individuals sitting,
standing or staying in streets or highways that are open for use
by motor vehicles; and to further

11.

Limit as much as possible the number of individuals sitting,
standing or staying on medians located in streets or highways
with a speed limit of 40 mph or greater that are open for use by
motor vehicles; and

(12) The City Council further finds that, notwithstanding the restriction
imposed by this section on the use by individuals of medians
located in streets or highways with a speed limit of 40 mph or
greater, scores of medians exist throughout the limits of the City that
are located in streets or highways with a speed limit of less than 40
mph and all such medians may be available for unrestricted use by
individuals .
.(hl
Intent.
This Ordinance is not intended to impermissibly limit an
individual's right to exercise free speech. Rather it seeks to impose a regulation
that is narrowly tailored to protect pedestrians and drivers alike by imposing a
specific place and manner restrictions for certain places where substantial threats
of grievous bodily injury or death exist due to vehicular traffic traveling at high
speeds.

(b£) Except for the eonduetf!§....permitted by Subsection (~) of this section, no
personindividual shall stand, sit, or stay for any purpose on the portions in any

87a
portion of any street or highway improved and open for use by vehicular traffic
for any purpose.
(eg)
Except for the conduct~permitted by Subsection (~) of this section, no
personindividual shall stand, sit, or stay for any purpose on any portion of any
median abuttinglocated within a street or highway improved andopen for use by
vehicular traffic if the posted speed limit for such street or highway is 40 mph or
greater; provided, if no speed limit is posted for such street or highway, then for
the purpose of applying the restrictions imposed by this subsection, the speed
limit of such street or highway shall be presumed to be 25 miles per hour.fer
any purpose unless:

(d~)

(1)

Such portion ofthe median is 30 or more feet in width from curb
line to curb line; or

(2)

Such portion of the median is located more than 200 feet away
from any intersection.

Subsections (bf.) and (eft) of this section shall not apply to:
(1)

Individuals persons using a crosswalk or safety zone to cross from
one side of the street or highway to another;

(2)

Government law enforcement officers, other government
employees, or government contractors or their employees or
subcontractors who are present in the street or highway or on the
median for the purpose of acting within the scope of governmental
authority law enforcement officers or public employees acting
within the scope of their vrork;

(3)

Individuals persons conducting legally authorized construction or
maintenance work, or other legally authorized work, in or on the
street, highway, or median; or

(4)

Individuals persons responding to any emergency situation!.

(5)

persons standing, sitting, or staying on any trail designated for
public use;

(6)

persons standing, sitting, or staying on land dedicated to the public
use as a public park; or

(7)

portions of medians containing benches or other improvements
designed for use by the public.

88a

